<html>
<title> - GOVERNORS ISLAND; VICKSBURG MILITARY PARK; NIAGARA FALLS HERITAGE AREA; AND CRATERS OF THE MOON PRESERVE BILLS</title>
<body><pre>[Senate Hearing 107-231]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-231
GOVERNORS ISLAND; VICKSBURG MILITARY PARK; NIAGARA FALLS HERITAGE AREA; 
                 AND CRATERS OF THE MOON PRESERVE BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                                 S. 689

   TO CONVEY CERTAIN FEDERAL PROPERTIES ON GOVERNORS ISLAND, NEW YORK

                                S. 1175

 TO MODIFY THE BOUNDARY OF VICKSBURG NATIONAL MILITARY PARK TO INCLUDE 
 THE PROPERTY KNOWN AS PEMBERTON'S HEADQUARTERS, AND FOR OTHER PURPOSES

                                S. 1227

 TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONDUCT A STUDY ON THE 
SUITABILITY AND FEASIBILITY OF ESTABLISHING THE NIAGARA FALLS NATIONAL 
     HERITAGE AREA IN THE STATE OF NEW YORK, AND FOR OTHER PURPOSES

                                H.R. 601

 TO REDESIGNATE CERTAIN LANDS WITHIN THE CRATERS OF THE MOON NATIONAL 
                    MONUMENT, AND FOR OTHER PURPOSES

                               __________

                             JULY 31, 2001

                               __________

                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
77-015                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                          John Watts, Counsel
                       Jeff Mow, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Castro, Bernadette, Commissioner, New York State Office of Parks, 
  Recreation and Historic Preservation...........................    26
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........     9
Cochran, Hon. Thad, U.S. Senator from Mississippi................     4
Craig, Hon. Larry E., U.S. Senator from Idaho....................     5
Drake, John C., Director of Community Development, City of 
  Niagara Falls, NY..............................................    29
Galvin, Denis P., Deputy Director, National Park Service, 
  Department of the Interior.....................................    17
H. Claude Shostal, President, Regional Plan Association, New 
  York, NY.......................................................
LaFalce, Hon. John J., U.S. Representative from New York.........    13
Lott, Hon. Trent, U.S. Senator from Mississippi..................     4
Moravec, F. Joseph, Commissioner of Public Buildings, General 
  Services Administration........................................    25
Moynihan, Hon. Daniel Patrick, Former U.S. Senator from New York.     7
Schumer, Hon. Charles E., U.S. Senator from New York.............     1
Simpson, Hon. Mike, U.S. Representative from Idaho...............    15
Thompson, Jane, President, Thompson Design Group, Boston, MA.....    36
                                                                     31

                                APPENDIX

Additional material submitted for the record.....................    49

 
GOVERNORS ISLAND; VICKSBURG MILITARY PARK; NIAGARA FALLS HERITAGE AREA; 
                 AND CRATERS OF THE MOON PRESERVE BILLS

                              ----------                              


                         TUESDAY, JULY 31, 2001

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Senate Dirksen Office Building, Hon. Charles E. Schumer 
presiding.

         OPENING STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. The hearing will come to order. First, I 
would like to begin by thanking Chairman Akaka and Senator 
Thomas for permitting me to hold this hearing today. The 
purpose of this afternoon's hearing is to receive testimony on 
several bills that are pending before the National Park 
Subcommittee.
    The bills that we will hear testimony on today include: S. 
689, to convey certain Federal properties on Governors Island, 
New York; S. 1175, to modify the boundary of the Vicksburg 
National Military Park to include property known as Pemberton's 
Headquarters; S. 1227, to authorize the secretary of interior 
to conduct a study of the suitability and feasibility of 
establishing the Niagara Falls National Heritage area in the 
State of New York; and H.R. 601, to re-designate certain lands 
within the Craters of the Moon National Monument as a national 
preserve.
    I would ask all of the witnesses who will be testifying, I 
will ask them later to submit their written statements to be 
included in the record. What I would like to do is make a brief 
statement on two of the bills on today's agenda, call on 
Senator Craig to talk about the bill that affects his area, and 
then well get right to our witnesses. First, on Governors 
Island, the status of Governors Island is, at best, confusing.
    Most of the people in this room can probably agree that 
Governors Island belongs to the people of New York and that New 
York should be able to reacquire it quickly and easily from the 
Federal Government. But, building a consensus on how that 
happens, and on what we do from there, has been exceedingly 
difficult. That needs to change and today's hearing is a great 
place to begin.
    Governors Island, in short, is a special place. It has 
served the United States in every major military campaign from 
the American Revolution through World War II. It even served as 
a primary prison for recalcitrant confederates during the Civil 
War.
    It is neither a surplus missile silo nor merely an 
abandoned piece of Federal property to be readily disposed of. 
As Senator Moynihan so capably demonstrated during his storied 
tenure, Governors Island is part of our history, part of our 
culture and part of our future. It has served this Nation well 
and its fate deserves Congress' close attention, especially 
when the hour of sale is so close at hand.
    Here is what we know so far. First, there is legislation, 
the Governors Island Preservation Act of 2001, that would 
transfer the island from the General Services Administration to 
the State of New York. The Act, co-sponsored by myself and 
Senator Clinton, returns the island to the State of New York, 
which will operate it through the Governors Island 
Redevelopment Corporation, a State-chartered, public benefit 
corporation operated jointly by the city and the State.
    GIRC will then implement a plan agreed upon by the mayor 
and the Governor and widely supported in New York, to protect 
the island's rich history and make it open to the general 
public. Second, negotiations involving the sale of Governors 
Island between the GSA and the State of New York are under way, 
which are consistent with the Balanced Budget Act of 1997 that 
currently governs the island's sale. That's the statute that 
currently governs the island's sale.
    The status of those negotiations is hazy, however, and we 
hope to leave here today with a much greater understanding of 
where they stand, and we will be questioning some of the later 
witnesses--the Federal witnesses--about that. Third, we know 
that thanks to President Clinton, the Governors Island National 
Monument has been established. The Monument consists of Castle 
Williams and Fort Jay, two impressive forts that along with 
Castle Clinton, Fort Columbus and Fort Wood--the base of the 
Statue of Liberty--formed a virtually impenetrable barrier that 
protected New York harbor from direct naval attack during the 
War of 1812 and ever since.
    We are also aware of a recent Justice Department memo 
suggesting that the national monument be sold, an unprecedented 
event in American history. But, we don't know much beyond that. 
That is something I hope will change in the next hour when we 
hear from Senator Clinton; Senator Moynihan; Denis Galvin, the 
Deputy Director of the National Park Service; F. Joseph 
Moravec, the Public Buildings Commissioner of the General 
Services Administration; H. Claude Shostal, the president of 
the Regional Planning Association; and Jane Thompson, president 
of the Thompson Design Group.
    Here is what we do not know. We really do not know what the 
administration thinks about Governors Island. We do not know 
whether they intend to protect its national monument or whether 
they would try to sell the monument. We do not even know if 
this administration agrees with the basic premise that 
Governors Island belongs to the people of New York, and that 
the Federal Government should do everything in its power to 
make sure that happens.
    It is time we learned just what this administration thinks 
about the future of Governors Island and, in turn, the future 
of New York. When President Bush visited New York three weeks 
ago Senator Clinton, Governor Pataki, Mayor Giuliani and I all 
spoke with him. In a little sense we ganged up on him, all four 
of us, Democrats and Republicans, city, State and Federal, to 
talk about the future of Governors Island. We explained to him 
in some detail, as we rode by on the ferry, as to the history 
of Governors Island, why it was so important that the Federal 
Government return the island to the people of New York as 
quickly as possible. And he was very gracious and said he would 
look into it.
    Hopefully, some of our witnesses today will expand on his 
position. But before the witnesses give their opinion, I will 
offer a few of my own. One, the State of New York gave 
Governors Island to the Federal Government for over 200 years 
for the sum total of one dollar. Now that the Federal 
Government no longer needs the property, it should give it 
right back.
    In 1800, the State of New York gave Governors Island to the 
United States to prepare for what was believed to be an 
imminent British attack. The island was then put to great use 
in the War of 1812, the Civil War and both World Wars. In 1958, 
the State settled its claim to Governors Island in Federal 
court for one dollar, because of a continuing Federal interest. 
When the Coast Guard determined to leave the island in 1995 
that Federal interest ceased to exist.
    When our Nation needed Governors Island we handed it over 
without question or delay. Now that the Government has no use 
for the property it should return what is rightfully ours. When 
most military bases are closed they are turned over to 
communities only after going through the BRAC process, the Base 
Realignment and Closure process. But, since Governors Island 
was transferred from the Army to the U.S. Coast Guard, not the 
Army, the Navy, the Air Force, the Marines, that process is not 
required in this case. And excuses along those lines absolutely 
should not exist.
    Two, Governors Island historical sites are far too 
important to fall into private hands. The entire 92 acre 
northern portion of Governors Island has been designated as a 
national historic district. And if the GSA were to sell this 
property to a private developer we can not be sure that these 
structures would be treated with the care and dignity befitting 
their historical status.
    One structure, the Admiral's House, hosted President Reagan 
and Soviet Premier Mikhail Gorbachev's final summit meeting, 
where the two leaders presented each other with the articles of 
ratification for the Intermediate Forces Nuclear Treaty in 
1988. And because the cost of operating Governors Island is so 
high, GSA spends approximately $10 million dollars a year just 
to maintain a mothball status that any private developer would 
have to make maintaining these landmark structures, at best, a 
secondary priority.
    Third, this is a great opportunity to build one of 
America's great urban parks and we should take full advantage 
of it. In 1999 the National Park Service counted over 5,300,000 
tourists to the Statue of Liberty National Monument, virtually 
all of whom came via ferry from Manhattan. Between New York 
City's eight million residents and the 34 million tourists who 
visit each year, we can turn Governors Island into a 
destination for New Yorkers and tourists alike, at a minimal 
cost to the taxpayers.
    Finding excess property near Manhattan is rarer than 
finding a seat on the number four train. We have 172 acres in 
the heart of the capital of the world. One hundred years from 
now, when our great, great grandchildren desperately search for 
places to play, I don't want to be the one who took an 
opportunity to create a park along the lines of Central Park or 
Prospect Park or Flushing Meadows, Corona Park, and threw it 
away simply to appease a few bean counters. That would be a 
shameful turn of events for an island with such glorious 
history, and a disservice to the people of New York.
    I also have a statement on another piece of legislation, 
the Niagara Falls statement, but let me do this because 
Congressman LaFalce is not here and he is interested in that. 
Let me call on Senator Craig so he can get going. I will call 
on our two witnesses and then we will go back and do the 
Niagara Falls statement.
    Senator Craig, thank you very much for your courtesy and 
being here and allowing me to chair this hearing.
    [The prepared statements of Senators Lott and Cochran 
follow:]
  Prepared Statement of Hon. Trent Lott, U.S. Senator From Mississippi
    Mr. Chairman, I appreciate the opportunity to submit testimony 
regarding inclusion of the Pemberton's Headquarters within the boundary 
of the Vicksburg National Military Park. Pemberton's Headquarters in 
Vicksburg, Mississippi, served as the headquarters for Confederate Lt. 
General John C. Pemberton during the Union siege of the City of 
Vicksburg. It was in the first-floor office of this house that 
Pemberton made the decision to surrender the city to the control of 
General U.S. Grant and the Union forces on July 4, 1863.
    General Pemberton was a West Point Military Academy graduate. He 
was made a Lieutenant General in the Confederate Army after serving 
many years for the South before the Civil War began. He was assigned to 
defend Vicksburg and the Mississippi River during General Grant's 
Vicksburg Campaign, and the Pemberton Headquarters served as his base 
of operation between May 23 and July 4, 1863.
    Pemberton's Headquarters is a needed addition to the Vicksburg 
National Military Park. This park was established in 1899 to 
commemorate one of the most decisive battles of the Civil War. Today, 
the Vicksburg National Military Park includes 1,325 historic monuments 
and markers, 20 miles of reconstructed trenches, a 16 mile tour road, 
antebellum homes, 144 emplaced cannons, restored Union gunboat, the USS 
Cairo, and the Vicksburg National Cemetery. These sights have provided 
an opportunity to explore the battlefields of the Civil War, and they 
give tourists a chance to see first-hand where such important events 
took place.
    The Battle of Vicksburg has been referred to as the turning point 
of the Civil War. It has been called the most decisive battle of the 
war because of its impact on the Confederacy. There is no doubt of the 
importance the Battle of Vicksburg had on the future of the Confederacy 
and the United States. The future of both nations was decided in the 
Pemberton Headquarters. It is part of the history of the war, and it is 
a needed addition to provide a better interpretation of this part of 
history.
    Mr. Chairman, again I appreciate the opportunity to submit 
testimony today. I look forward to the Committee's swift action on this 
legislation. Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Thad Cochran, U.S. Senator From Mississippi
    Mr. Chairman, I appreciate the opportunity to express my support 
for S. 1175, a bill I have introduced with Senator Lott to adjust the 
boundary of the Vicksburg National Military Park to include General 
Pemberton's Headquarters.
    General John C. Pemberton's house served as his military 
headquarters during his command of the Confederate forces while they 
defended Vicksburg during the 47-day siege of the city in 1863. It was 
also in this building that General Pemberton and his advisors made the 
decision to surrender the City of Vicksburg to Union troops on July 3, 
1863.
    In 1895, a group of Confederate and Union veterans organized the 
Vicksburg National Military Park Association to petition Congress to 
establish a national military park at Vicksburg. These veterans 
recommended that the headquarters of both Union Major General Ulysses 
S. Grant and Confederate Lieutenant General John C. Pemberton be 
included in the park. Four years later in 1899, Congress passed 
legislation establishing the Vicksburg National Military Park. This 
legislation directed park commissioners to mark with historical tablets 
the headquarters of General Grant and General Pemberton. At the time, 
General Pemberton's headquarters were being used as a private residence 
by a prominent and influential family, which resulted in the home's 
exclusion from the park's boundaries. General Grant's headquarters were 
unoccupied and included as a part of the park.
    Mr. Chairman, it was the intent of the Confederate and Union 
veterans to include General Pemberton's headquarters in the park when 
they petitioned Congress in 1895. The inclusion of General Pemberton's 
headquarters will allow the Vicksburg National Military Park to more 
successfully interpret the campaign and siege of Vicksburg; and, 
therefore, I respectfully request the Committee approve this 
legislation.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much. It is 
always a great pleasure to see Senator Moynihan again. One of 
my former colleagues that you know well, Senator McClure, said 
that retirement from the Senate was a rejuvenating process. You 
look younger, Senator Moynihan.
    Senator Moynihan. Thank you, sir.
    Senator Craig. Let me also suggest that the way you deal 
with islands at the mouth of New York harbor is but for a few 
beads and trinkets. I think you didn't offer the President the 
appropriate----
    Senator Moynihan. We are ready, he can pick his beads.
    Senator Craig. For a few beads and trinkets it is yours. It 
is important that we hold these hearings. These are critical 
pieces of legislation and vital pieces of property. I'm going 
to focus you for just a moment on H.R. 601, that deals with the 
Craters of the Moon National Monument in Idaho.
    It is a timely situation, Mr. Chairman, as we watch the 
glorious eruption of a mountain over in Italy at this moment. 
The Craters of the Moon is the youngest flow of lava in the 
lower 48 States, occurring about a million years ago, taking a 
fair chunk of south-central Idaho. Our astronauts, when they 
were first contemplating a landing on the moon came to the 
Craters of the Moon to practice, thinking it was a moonscape-
like environment; only to find out that the moon was, in fact, 
a great deal more hospitable than are the Craters of the Moon 
in Idaho.
    President Clinton, by presidential proclamation 7373, 
expanded the boundaries of the Craters of the Moon, that was 
originally established by President Coolidge in 1924. In that 
expansion we have recognized a conflict of authority, and 
therefore management, Mr. Chairman. Monuments, by designation, 
occur and are placed under the authority of the National Parks. 
National Parks have a standard of operation that I have over 
the years challenged, but unsuccessfully. That is, in most if 
not all of our national parks we do not allow hunting.
    By the very scope of the expansion of the Craters of the 
Moon in moving it from some 50,000 to some 661,000 acres, some 
very prime hunting habitat was taken under the National Park 
Service. My colleague, Congressman Mike Simpson of Idaho, 
introduced H.R. 601 in the House. It passed and creates a 
technical fix so that the BLM can have authority in an area 
dealing with the prime hunting areas. The Park Service has the 
authority as it relates to the overall management of the 
antiquities, unique geologic sites, that is the Craters itself.
    This also includes an area known as ``The Great Rift,'' 
which is a crack in the surface of the Earth that is probably 
longer and deeper than any other we know, which is a result of 
that volcanic action that is within the greater Yellowstone 
volcanic calderas eco-system that we've come to know and 
appreciate over time. The Craters of the Moon is on the edge of 
that unique piece of geology.
    I do believe the legislation itself is, in fact, a 
technical fix and appropriate. It is supported by a variety of 
groups. The Idaho Fish and Game Department and the State of 
Idaho believe that this is necessary for the effective 
management of that property, both for the value of the 
antiquities but also for the management of the wildlife 
involved.
    I'm pleased to be here. I think both the Congressmen will 
be here soon. I suspect there is a vote on in the House and 
that is what has detained them. I'm going to have to step away 
to an appropriations markup. But I did want to come and 
recognize the efforts of my colleague from the Second 
Congressional District of Idaho, and I think the appropriate 
fix that has been created.
    Mr. Chairman, also let me ask unanimous consent that a 
statement by Senator Lott on S. 1175 be included in the record.
    Senator Schumer. Without objection.
    Senator Craig. Thank you.
    Senator Schumer. I thank you, Senator Craig for being here 
and understand you have other commitments. I take it you have 
no objection if we tied these four bills together in one 
package?
    Senator Craig. Like a freight train, thank you.
    Senator Schumer. Okay, thank you. Let me now introduce--we 
have two bits of protocol to deal with here. First is, usually 
a sitting member of the Senate has standing to go first. 
Senator Clinton has graciously agreed to let Senator Moynihan 
go first because he has another important engagement and was 
good enough to come here. The second bit of protocol, which was 
new to me, is that under 18 U.S.C. 207, a statute by which we 
are governed, the provisions regarding former members of 
Congress; Senate ethics counsel has asked that I respectfully 
administer the oath of office to Senator Moynihan. So, please 
raise your right hand Senator.
    Do you pledge that the testimony you are about to provide 
before this subcommittee shall be truthful to the extent of 
your knowledge?
    Senator Moynihan. I do.
    Senator Schumer. And when Senator Moynihan says that, the 
extent of his knowledge is so vast it's a rather large 
statement, larger than most others will make. But let me just 
thank him for coming. First let me say it is an honor to have 
you back, Senator. Is this the first time you are appearing as 
a former member before a committee?
    Senator Moynihan. The very first, sir, and I can't be more 
happy.
    Senator Schumer. Thank you. It is an honor. Senator 
Moynihan's role in not only this particular issue, which is why 
Senator Clinton and I are so honored that he be here, but in 
just establishing and expanding the Nation's political mind 
about our history and its dimensions and its importance to our 
future. He has played that role in both the country and New 
York State, particularly. It is one of your many 
accomplishments that we are all thankful for. And so with that, 
let me thank you for coming and your entire statement will be 
read in the record, and the podium is yours.

          STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, 
               FORMER U.S. SENATOR FROM NEW YORK

    Senator Moynihan. I thank you, Mr. Chairman. I thank my 
successor, the distinguished Senator from New York, Senator 
Clinton, for allowing me to go forward. I'm here faithful to 
your command, however gently conveyed, to testify on S. 689, 
the Governors Island Preservation Act of 2001, introduced by 
you and Senator Clinton.
    The measure is essentially the same as the Governors Island 
Preservation Act of 2000 of the 106th Congress, which you and I 
introduced last year. The bill now before you has the plainest 
purpose, to, and I quote, ``Convey to the State of New York all 
right, title and interest of the United States in and to 
Governors Island.''
    It is painful that it has come to this. Governors Island 
was acquired by the Dutch, thereafter ceded to the British 
where it became the home of colonial governors, hence its name. 
Queen Anne's cousin Edward Hyde, or Lord Cornbury, built an 
exquisite residence--I'm sure Ms. Thompson would agree--Queen 
Anne, as architectural historians say, which is still there. 
There cannot be another like it in the Western Hemisphere.
    If the island is little known, it is essentially because it 
has been a military base since the Revolutionary War and 
generally off limits to the public. This is no ordinary 
military encampment. To the contrary, sir, it could be argued 
that we owe our national existence to the fortifications which 
General Israel Putnam threw up in April 1776 on the Buttermilk 
Channel side, which is just a baseball's throw from Brooklyn 
Heights.
    Lord Howe had arrived with the largest military force ever 
sent overseas by any Nation in the history of nations to put an 
end to this revolution then and there. There were 400 ships, 
1,200 guns, 32,000 British, Scot and Hessian troops. They 
landed on Long Island and headed for George Washington and his 
army. He had to flee, and he made it just, because Putnam's 
artillery firing on Brooklyn Heights, over the Buttermilk 
Channel, held Howe back just long enough for Washington to 
escape to Manhattan and for the Revolutionary War to proceed.
    In 1783, Governor George Clinton accepted the British 
surrender of the island. In 1794, he proposed to the U.S. 
Congress that it might be fortified to protect what he called, 
``the naked and exposed condition of our principal seaport.'' 
In 1806, Fort Jay--that is John Jay of the Federalist Papers 
and the Supreme Court--was complete, a formidable Vauban 
starred embankment. Simultaneously, forts were erected on 
Bedloe's Island, as you said sir, now the base of the Statue of 
Liberty, and Castle Clinton at the tip of Manhattan--the 
Battery as we call it to this day. The triangulation was 
perfect. The British never came back.
    But our armed services stayed on. Again, as you mentioned, 
a major establishment in the Civil War, First World War, and 
Second World War. But then the army departed for Fort Meade in 
Maryland. The Coast Guard moved in for a bit. But then in the 
1990's it crossed the lower bay to Staten Island and silence 
descended after three centuries of epic events.
    Still, the island fair to sparkled on the autumn morning in 
1995 when President Bill Clinton flew over it in a Marine 
helicopter on his way to address the 50th anniversary of the 
United Nations General Assembly. He had graciously invited me 
to come along. I pointed out Fort Jay, stunning from the air, 
and explained that the site had now been abandoned by the 
military.
    President Clinton thereupon declared that Governors Island 
should be returned to New York. He suggested a fee of one 
dollar. We had received as much in a friendly exchange in 1958, 
as you mentioned. He hoped it would be used for public 
purposes. I said mostly.
    I promptly wrote the Governor and the mayor relating the 
President's offer. In retrospect, we would have been wise to 
accept that offer right off, and thereafter negotiate with 
ourselves precisely what we would do with the new conveyance. 
Well, we didn't.
    Then in 1997, out of nowhere, the Budget agreement for 
fiscal year 1998 had this charming entry: ``Sell Governor's 
Island--500 million dollars.'' I do not wish to seem irritable, 
Mr. Chairman, but they couldn't even bother to spell the name 
correctly. There is no possessive apostrophe.
    I think in retrospect we can agree this was a plug number, 
a sum included in a budget to make the whole appear closer to 
balance. As I recall this budget was balanced, the first in 
ever so long, withal somewhat spuriously. That was then, and no 
hard feelings.
    But today, the city and State have come up with a fine 
master plan for the future uses of the island. The Park Service 
has taken custody of Fort William and Fort Jay, and the Federal 
budget is in surplus. And so, I respectfully petition Congress, 
give us back our island.
    If you don't think it is our island, sir, on your next 
visit you will find atop the gateway to Fort Jay a splendid 
sandstone sculpture depicting the artillery weaponry of the 
early 19th century. But at the center is, mark it, the coat of 
arms of the State of New York. At the base the sun is rising in 
splendor; atop, a spread eagle. Finally, a Phrygian cap, the 
ancient Roman symbol of liberty.
    Now, need anything more be said. I thank the committee and 
in closing ask permission to include in the record a most 
gracious letter in this matter sent me by President Clinton, 
January 6, 2000, which confirms exactly what I have just 
proposed. It is his view, I have no doubt it is your view 
ma'am, and I thank the committee for the honor of appearing.
    [The letter referred to follows:]
                                           The White House,
                                   Washington, DC, January 6, 2000.
Hon. Daniel Patrick Moynihan,
U.S. Senate, Washington, DC.
    Dear Senator Moynihan: We are just a few weeks shy of the 200th 
anniversary of New York's cession of Governors Island to the United 
States for the purposes or strengthening the harbor's defenses. The 
arrangement seems to have worked well and it does seem like we can 
confidently turn the property to other uses.
    Some time ago, I suggested to you that the Federal Government was 
ready to facilitate the Island's return to New York. I am encouraged to 
learn that New York State and New York City have agreed on a tentative 
plan for the Island's future use.
    We look forward to working with you and New York officials on the 
necessary details to return Governors Island to New York. Once again, 
New Yorkers are in your debt for your unrelenting efforts to place an 
underused public resource at their disposal.
            Sincerely,
                                                      Bill Clinton.

    Senator Schumer. Thank you, Senator, and without objection 
that letter is added to the record.
    Senator Clinton.
    Senator Moynihan. Will you excuse me, sir?
    Senator Schumer. Yes, and Senator thank you very much for 
being here and for once again casting your erudition on this 
chamber.

           STATEMENT OF HON. HILLARY RODHAM CLINTON, 
                   U.S. SENATOR FROM NEW YORK

    Senator Clinton. Mr. Chairman, as Senator Moynihan departs, 
I think all of us want to acknowledge, once again, his 
extraordinary advocacy and protection of New York and America's 
rich history. I think, as I looked around at those arrayed 
behind the chairman and even the cameramen, you captured not 
only their attention but their hearts. If you could have a vote 
in this room, Senator, we would have Governors Island back this 
afternoon. For that, I am very grateful.
    Those of us representing New York, starting with the 
chairman who is holding this hearing today on two issues of 
such great importance to our State, namely Governors Island and 
Niagara Falls, know very well that New York has played such a 
pivotal role in the history of our Nation from its very 
beginning. The early stories of the splendors of Niagara Falls, 
Congressman LaFalce, are legendary. Certainly the role that 
Governors Island played, as Senator Moynihan so well 
summarized, I think it is no exaggeration to say were 
instrumental if not essential in creating the country that we 
celebrate today.
    I believe that the key point for this committee to take 
away from the hearing that the chairman has so timely called, 
is that the State of New York gave this property to the U.S. 
Government at literally no cost. It was, I think, a dollar 
transaction. At the beginning, in 1800 it was not even that. It 
was for New York to play the role in national defense against 
potential enemies that New York had played from the very 
beginning.
    It is indeed ironic, as the chairman pointed out, that 
because the property was transferred to the Coast Guard there 
was no process for the timely and orderly transition back to 
State ownership that we have seen in other places in our 
Nation, such as The Presidio in California. Furthermore, the 
huge cost, over $10 million dollars a year of maintaining 
Governors Island, makes it inappropriate for the Federal 
Government to ask the State to pay a huge sum to have it 
returned. If indeed it were still a military installation, the 
Department of Defense would be required to return it to the 
State and to aid in its redevelopment.
    Now is the time for the Federal Government to go ahead and 
do the right thing. I spoke last evening to the Governor, 
Governor Pataki, who made it clear that based on all of the 
analysis available to the State, not only is it expensive to 
maintain the island, but to put it to appropriate uses will 
continue to impose expenses not likely to be borne by any 
private developer. And were a private developer to be 
interested in attempting to pay the price that is set by the 
Federal Government, a half a billion dollars would be much too 
great a burden to overcome, because there is no likelihood 
whatsoever that the city or the State would give the necessary 
permission to develop this island in such a way to make back 
that investment.
    If you wanted to have a hundred story apartment building 
with retail development in order to get back the investment 
that would be needed to pay the price asked by the Federal 
Government, that is not going to happen. The State and the city 
now have a plan. The properties that are represented on the map 
there, and the uses that they would be put to that you can see, 
and the descriptions of what the Governors Island Redevelopment 
Corporation has put forth as its potential use, will guarantee 
that the island will remain part of our history, that it will 
be available for cultural, historic and retail use, but in an 
appropriate manner that will be in keeping with the role that 
the island has played in the country's history in the past.
    So, Mr. Chairman, thank you for holding this hearing. I 
want to thank you also for your leadership on the issue of the 
Niagara Falls National Heritage area, that I know our colleague 
Congressman LaFalce will address, and I appreciate very much 
your inviting Senator Moynihan to once again remind us why this 
is not just a run of the mill issue. This really goes to who we 
are as a nation, and it goes to the question and rights of New 
York's sovereignty. I thank you very much.
    Senator Schumer. Well thank you, Senator Clinton, not only 
for your help on this issue but for our partnership in the 
Senate. I know you are busy as well, and so we are going to 
move on to other issues. But we understand that you might have 
to go.
    Senator Clinton. Thank you, Mr. Chairman.
    Senator Schumer. And now, I'll tell Congressman LaFalce I 
had withheld my opening statement on Niagara Falls until he got 
here. So, I'll make mine, then Congressman LaFalce will make 
his and then Congressman Simpson. Already Larry Craig talked 
about your bill and you will have your opening statement as 
well.
    Also on our agenda, and just as important, is the issue of 
Niagara Falls and the efforts underway to restore the majestic 
beauty of one of America's most beloved treasures and scenic 
sites. Like too many other national treasures, Niagara Falls 
has been taken for granted over the years and has deteriorated 
to a point of disrepair. Sadly, what was once one of the 
world's brightest stars has dimmed and is now in need of 
restoration and renewal.
    The beauty of the Falls is as great as ever. I still 
remember the first time when my parents took me and my brother 
and sister, I was 11 years old, seeing the Falls and just being 
awed by their majesty, their beauty, their power and their 
strength. But unfortunately, when you go to visit the Falls 
now, we almost have a tale of two cities. One side in Canada is 
booming, the other side in New York needs help.
    And so, thankfully over the last year, a movement to 
restore the Falls to its rightful place has sprung up among the 
residents of the area, local officials, the State of New York 
and community advocates. And if I could emphasize one point, 
and I know John LaFalce agrees with this, we have for the first 
time some real unity. One of the things that has held things 
back is when efforts have been made there were factions. There 
were factions within the community of Niagara Falls. There were 
divisions among elected officials. The Federal, State and local 
governments had not gotten their act together.
    But we are at a moment of unique serendipity where we are 
all singing from the same page. And that gives us an 
opportunity to all work together. I want to thank Congressman 
LaFalce who has done a great job in helping spearhead this 
development.
    I want to thank Governor Pataki and Bernadette Castro, our 
parks commissioner, for working so closely together with us; 
and all of those who have been involved, our State senators, 
our State assembly members, the mayor of Niagara Falls, the 
county exec, the head of the legislature of Niagara County. We 
are all now working together, and so together we have started 
to work on making sure Niagara Falls once again rises to the 
stature it once held as one of the seven wonders of the world.
    Today's hearing takes the next step in advancing that 
vision and bringing it closer to reality. Last year Congressman 
LaFalce and I approached the National Park Service in an effort 
to see how the Federal Government could support local efforts 
to protect the rich history and natural splendor of the Falls, 
while simultaneously spurring much needed economic development 
in the region. We knew that the community was adverse to a 
national park, because all too often in the past national parks 
have meant Washington dictates to the community what should be 
done with a great deal of tension.
    The Park Service, to their great, great credit was eager to 
help, and understood this. They helped guide us, but they 
warned us to be careful. They said before you start down this 
path build a local consensus, otherwise any efforts you 
undertake will not bear fruit. That's what we have done, Park 
Service. We are now ready to roll.
    The Park Service has agreed to fund an initial survey to 
figure out possible Federal roles, as long as we build the 
local consensus about how to go about fixing the Falls. Well, 
when a community has been let down by unkept promises as often 
as Niagara Falls, and is in the throes of a wrenching 40 year 
economic decline, it is not the easiest thing in the world to 
build a consensus about what should be done. Individually, 
everyone had an opinion about how to go about fixing things. 
But collectively, it has been tough to get together and agree 
on a specific plan of action.
    But I am glad to say we have not let the daunting task of 
doing so get in the way. Earlier this year we established the 
Niagara Falls Advisory Panel, a 50 member group that represents 
a cross-section of interests in Niagara Falls and serves as a 
sounding board for the Park Service's study. Just yesterday the 
Park Service briefed the board on the findings of its initial 
$25,000 dollar survey. The Park Service found, as we have known 
all along, that there is a way for it to help rejuvenate the 
unique assets of Niagara Falls.
    The Park Service highlighted three options. One was to 
serve a technical advisory role, which by the Park Service's 
own admission would not have accomplished very much. Another 
was to undertake a study to create a national park. As I 
mentioned, although the Park Service felt that the Niagara 
Reservation State Park and the other seven State parks met the 
suitability criteria to undertake such a study, it recommended 
against this option because of the local opposition. The 
remaining option, to undertake a special resource study to 
determine the suitability of establishing a national heritage 
area made the most sense to the Park Service and thankfully to 
our advisory panel, unanimously as well.
    A heritage area designation would meet two key tests. It 
would confer national recognition on this unique place while 
complementing a range of local and State initiatives underway 
to preserve the Falls and spur economic development. The 
special resource study, which we are now beginning to move, 
will enable the Park Service to develop a framework that will 
enable the region to start working to attract even more 
visitors to Niagara Falls.
    Currently, seven million people, on average, visit the area 
annually. It will balance the preservation efforts and 
environmental restoration projects in the region with much 
needed economic development efforts. And, it will raise the 
awareness of many historical sites in the region, like the 
Niagara Reservation State Park, one of the Nation's first State 
parks; and Colonial Niagara Historic District in Lewiston and 
Youngstown, home of the old Fort Niagara State historic site 
which the British briefly captured during the War of 1812.
    I think the fact that Bernadette Castro, commissioner of 
the New York State Office of Parks, Recreation and Historic 
Preservation, Congressman LaFalce and John Drake of Mayor Irene 
Elia's office are here today to submit testimony speaks volumes 
about the energy that is emerging from the Falls. There is, for 
the first time, a real feeling of hope. And we look forward, 
with the Federal role, of helping make that hope become a 
reality.
    And with that, I'm going to call on Congressman LaFalce to 
read his statement. We have a vote in 10 minutes, so if 
Congressman LaFalce could take five and Congressman Simpson 
could take a little less than five, I can get over there and 
vote.

              STATEMENT OF HON. JOHN J. LaFALCE, 
               U.S. REPRESENTATIVE FROM NEW YORK

    Mr. LaFalce. I will try to take less than five. I ask 
unanimous consent that the entirety of my statement be included 
in the record, Mr. Chairman.
    Senator Schumer. Without objection.
    Mr. LaFalce. I had a number of thoughts when I came into 
the room. My first thought when I saw you, Senator Clinton and 
Senator Moynihan, boy what a terrific trio. I don't know that 
any State has ever had three such talented individuals 
represent them in such proximity.
    Senator Schumer. Thank you.
    Mr. LaFalce. My second thought was it's going to be a tough 
sell to convince you to promote S. 1227 and its companion H.R. 
2609, but I'll make the effort. My third thought was right now 
we are debating a bill on the floor of the House, the Human 
Cloning Bill, and there is a prohibition against human cloning. 
And I have got to leave early to offer an exception to permit 
the cloning of whatever genes give you the energy that you 
have. If we could only clone your energy, wow. You certainly 
have brought energy and enthusiasm to this issue, Senator 
Schumer, and I thank you for it.
    I'm not going to reiterate my testimony. Let me just give 
you a little bit of the history. We were plagued for years with 
structural deficits as far as the eye could see. There was no 
Federal money. The National Park Service was cutting, cutting, 
cutting. As difficult as it was within the State park system, I 
was hearing worse stories about the National Park System.
    But things started to change. A couple of years or so ago 
Governor Pataki started showing some terrific enthusiasm about 
helping the Falls out. And Bernadette Castro did too, and that 
was a good sign. And then there were a few elected leaders--
Democrat and Republican--Irene Elia, Paul Dyster, both with 
their PhDs, both very environmentally conscious. I started 
meeting with them and most importantly I started talking with 
Bruce Babbitt, the Secretary of the Interior.
    And you have to understand the tremendous curiosity that 
Bruce has, and his wife was a native of Niagara Falls. Her 
father worked at a plant in Niagara Falls. She went to school 
in Niagara Falls.
    And Bruce and I both read two of the same books and we got 
together to discuss them. One was ``City of Light,'' by Lauren 
Belfer, all about what was going on in Niagara Falls and 
Buffalo one hundred years ago. And I hope, Senator, you can 
make the opening production of ``City of Light,'' at the Studio 
Arena Theater this September in Buffalo. It should be 
phenomenal.
    Senator Schumer. I would love to.
    Mr. LaFalce. The other was a book written by a Canadian, 
Pierre Burton, ``Niagara.'' We discussed them. We said, ``What 
could be done.'' We talked about not a national park, but a 
national heritage area. That is when he put me in contact with 
Jim Pepper, who came to my office in June 2000. And then 
Secretary Babbitt came in in September and he rest is history. 
Working with you, especially, we now are at the point where 
everybody is on-board. We have a vision. We are going to make 
this happen and your leadership has been invaluable in that 
effort, and I thank you for it.
    [The prepared statement of Mr. LaFalce follows:]
    Prepared Statement of Hon. John J. LaFalce, U.S. Representative 
                             From New York
    I am pleased to be here today to express my very strong support for 
S. 1227 and its House companion, H.R. 2609, bills authorizing the 
Secretary of the Interior to study the suitability and feasibility of 
establishing the Niagara Falls National Heritage Area in New York 
State.
    Formed thousands of years ago, the Niagara River and Niagara Falls, 
one of the Natural Wonders of the World, have defined the history and 
culture of the region that bears their name: the Niagara Region. The 
Niagara River flows from Lake Erie, eventually dropping over the 
American side of the Falls from heights of over 100 feet, and then 
flows about seven miles from the gorge below to its mouth at Lake 
Ontario.
    In addition to the obvious magnificence of the River and the Falls 
themselves, the Niagara Escarpment, the geological formation of 
dolomite that surrounds the River, holds some of most significant 
fossils of its period in the world. The region is also home to 
thousands of species of flora and fauna, including threatened species.
    Historically, early European settlers to the Niagara Region 
established substantial associations with Native Americans, and the 
area was the site of important events in the French and Indian War, the 
Revolutionary War, and the War of 1812. Later, as a gateway to Canada, 
the Niagara region was a major stop on the Underground Railroad for 
escaping slaves.
    Over time, man learned to harness the power of the waters of the 
Niagara, constructing hydropower projects to generate electricity. That 
abundance of electricity spurred the development of industry along the 
banks of the Niagara, making the region a leader in manufacturing. The 
existing Niagara hydropower project is the largest non-federally 
operated project of its kind in America.
    The romantic vistas of the Falls have made the City of Niagara 
Falls the ``Honeymoon Capital of World.'' Today, Niagara Falls draws 
almost 10 million visitors annually to witness its natural wonder.
    With the development of the partnership park model represented by 
the National Heritage Areas, first used in 1984, we have a significant 
opportunity to bring the National Park Service, the New York State 
Department of Parks, Recreation, and Historic Preservation, the City of 
Niagara Falls and other area municipalities and local communities 
together as partners to create a Niagara Falls National Heritage Area, 
in celebration of the natural, historical, and cultural resources of 
the Niagara region.
    In recognition of that opportunity, in June 2000, I began a 
dialogue in meetings in my office with representatives from the 
Interior Department, including James Pepper, Assistant Regional 
Director of the National Park Service's Northeast Region, and his 
colleagues, about a possible role for the agency in Niagara Falls in 
the form of a National Heritage Area.
    In August 2000, I met in Niagara Falls with City of Niagara Falls 
Mayor Irene Elia, Senior Planner Thomas DeSantis, and local heritage 
and planning experts including Bonnie Foit-Albert, a prominent 
architect, and Robert Shibley of the University at Buffalo, to discuss 
how the federal government, and especially the National Park Service, 
could assist redevelopment efforts Niagara Falls. The City of Niagara 
Falls, in conjunction with experts including Ms. Foit-Albert and Mr. 
Shibley, created a plan for the redevelopment of the Falls. These 
experts have indicated that their vision could be complemented greatly 
by the creation of a Niagara Falls National Heritage Area, and have 
enthusiastically embraced the concept.
    Pursuant to those meetings, in September 2000, I hosted a private 
visit to Niagara County by then-Interior Secretary Bruce Babbitt and 
his wife, Hattie, taking them on a tour of the Niagara Falls area, 
without any notice to the press. Highlights of the day-long tour 
included a boat trip on the upper Niagara River, a ride on the Maid of 
the Mist, a guided tour of the Niagara Falls State Park, a visit to 
Whirlpool State Park, and a stop at the Turtle Native American Heritage 
Center. We were joined by Ed Rutkowski, New York State Parks Regional 
Director; Mr. DeSantis; Paul Dyster, Niagara Falls City Councilman; and 
representatives from Niagara Redevelopment, Inc., the current owners of 
the Turtle. Everyone saw the possibilities presented by a partnership 
effort in Niagara Falls.
    Secretary Babbitt promised me that the Interior Department, after 
the election to avoid any accusations of partisanship, would set aside 
$25,000 for an initial study of possible National Park Service 
involvement in the Falls. As a result of Secretary Babbitt's visit and 
the follow-up work of Senator Schumer and myself, in January 2001, the 
National Park Service made this funding official.
    Just yesterday, representatives of the National Park Service came 
to Niagara Falls to present a draft of the agency's findings, 
recommending that Congress pass legislation, such as the bill we are 
discussing today, authorizing a study of the feasibility of creating a 
Niagara Falls National Heritage Area. Therefore, S. 1227 and the 
companion bill I have introduced in the House represent the next, 
necessary step in the process.
    I look forward to continuing to work with the National Park 
Service, Senator Schumer, Senator Clinton, and Commissioner Castro, 
Mayor Elia, and all the federal, state, and local stakeholders to 
develop a National Heritage Area in Niagara Falls. In so doing, we will 
not only assist Niagara Falls in fully living up to its enormous 
potential, but also help to ensure the protection and preservation of 
the historical, cultural, and natural heritage of Niagara Falls for 
future generations of Americans. 

    Senator Schumer. Well thank you Congressman for your 
leadership as well as your brevity, because I know I do not 
want to miss that vote. Now let me call on Congressman Mike 
Simpson, the Congressman from the Second District of Idaho, who 
will speak on the Craters of the Moon.
    Mr. Simpson. H.R. 601.
    Senator Schumer. And if you could limit your remarks to 
about 3, 3\1/2\ minutes.

                STATEMENT OF HON. MIKE SIMPSON, 
                 U.S. REPRESENTATIVE FROM IDAHO

    Mr. Simpson. I appreciate the fact that you have a vote on. 
I know it is on agricultural spending and I want you to get 
over there to vote for that.
    Senator Schumer. Thank you.
    Mr. Simpson. On November 9, 2000 President Clinton issued a 
Presidential Proclamation 7373 to expand the boundaries of the 
Crater of the Moon National Monument to include 661,000 
additional acres of Federal land. Prior to this proclamation 
the monument, which was established by President Coolidge in 
1924, was composed of 54,000 acres. The expanded area is 
managed by the Secretary of the Interior through the National 
Park Service and Bureau of Land Management. The National Park 
Service manages approximately 410,000 of these expanded acres 
and the Bureau of Land Management about 251,000.
    When the monument was expanded it was understood that 
continued access to hunting would be maintained. That was the 
agreement that we had with Secretary Babbitt and I believe it 
was the intention that everyone had when this was originally 
done. However, when the proclamation was issued hunting was 
restricted in the area of the expansion managed by the National 
Park Service because the Park Service historically disallows 
hunting on lands under their jurisdiction, unless specifically 
mandated by Congress.
    So, what this bill does is allow that the areas that were 
open to hunting before the expansion will remain open to 
hunting. In addition, the amended bill includes language 
requested by the administration to ensure that the secretary 
has appropriate oversight, in cooperation and consultation with 
the State of Idaho, over hunting activities within the expanded 
area managed by the National Park Service.
    Finally, the bill as amended designates the expanded area 
under the jurisdiction of the National Parks Service as a 
``national preserve,'' rather than as a ``national monument.'' 
That was done at the request of the minority on the House side. 
Their members would rather not set the precedent of hunting in 
a national monument, so they wanted to change the name to a 
national preserve, which I agreed to.
    This is really, as I said, establishing what we thought was 
the agreement, and I would also say that this passed 
unanimously in the House. It has the support of the 
administration. Lastly, I would just point out that the hunting 
season in the Craters of the Moon area, under the jurisdiction 
of the BLM, begins in a month, on August 30, 2001. So, I would 
appreciate it if the committee could give its quick 
consideration of this legislation. It would be very beneficial. 
I thank you for the opportunity to testify in favor of this.
    [The prepared statement of Mr. Simpson follows:]
     Prepared Statement of Hon. Mike Simpson, U.S. Representative 
                               From Idaho
    Mr. Chairman (Sen. Akaka is the Chairman. However, Schumer will be 
chairing).
    Thank you for scheduling this hearing on H.R. 601. This is an 
important issue for Idaho, and I appreciate the opportunity to testify 
before the Senate Energy and Natural Resources Subcommittee on National 
Parks, Historic Preservation, and Recreation.
    On November 9, 2000, former President Bill Clinton issued 
Presidential Proclamation 7373 to expand the boundaries of the Craters 
of the Moon National Monument to include approximately 661,287 acres of 
additional federal land. Prior to Clinton's proclamation, the monument, 
which was established by President Coolidge in 1924, was comprised of 
54,440 acres.
    The expanded area is managed by the Secretary of the Interior 
through the National Park Service and the Bureau of Land Management. 
The National Park Service manages approximately 410,000 acres of the 
expansion, while the Bureau of Land Management manages the remaining 
251,000 acres.
    When the monument was expanded it was understood that continued 
access to hunting would be maintained. However, when the proclamation 
was issued, hunting was restricted in the area of the expansion managed 
by the National Park Service, because the Park Service has historically 
disallowed hunting on lands under its jurisdiction, unless specifically 
mandated by Congress.
    Under H.R. 601, areas that were open to hunting before the 
expansion will remain open to hunting. In addition, the amended bill 
includes language requested by the Administration to ensure that the 
Secretary has appropriate oversight, in cooperation and consultation 
with the State of Idaho, over hunting activity within the expanded area 
managed by the National Park Service. Finally, the bill, as amended, 
designates the expanded area under the jurisdiction of the National 
Park Service as a ``national preserve'' rather than a ``national 
monument.''
    When the Idaho congressional delegation and Governor spoke with the 
Secretary of the Interior regarding the Craters of the Moon expansion 
we were led to believe that hunting would not be affected. However, 
when the proclamation was issued it was realized that current National 
Park Service regulations preclude hunting in the area of the expansion 
managed by the National Park Service. Therefore, denying access to 
traditional hunting grounds.
    H.R. 601 is about fairness and ensuring that Idahoans are not 
locked out of traditional hunting areas. H.R. 601 is supported by the 
Administration and has strong bipartisan support in the House.
    H.R. 601 is about establishing what we all thought was the 
Agreement, including Sec. Babbitt, when the monument expansion 
occurred.
    The language in this bill is the result of a bipartisan effort 
between minority and majority Committee Members and staff. H.R. 601 was 
favorably reported out of the House Resources Committee, and passed the 
House unanimously on May 1, 2001.
    The hunting season in the Craters of the Moon area under the 
jurisdiction of the BLM begins in a month, on August 30, 2001. If the 
Committee sees fit, I would appreciate quick consideration of this 
legislation.
    Thank you, Mr. Chairman.

    Senator Schumer. Well thank you very much. You sound like a 
New Yorker.
    Mr. Simpson. Yeah, we are trying to get it done fast. If 
you can move it as fast as I can talk, that would be very 
beneficial.
    Senator Schumer. Thank you, Congressman.
    Mr. Simpson. Thank you, Senator.
    Senator Schumer. We are going to have a temporary recess 
because I have to go vote, and then we will be right back with 
our next panel.
    [Recess]
    Senator Schumer. The hearing will come to order. And 
because we had to start the hearing late in the day, and 
because we had this vote and another, in the interest of saving 
everyone time we are going to combine the second and the third 
panels, if that is okay with everybody? Then we will hear 
everybody testify and then we will do the questions. In that 
way, no one will have to wait in case there is another vote.
    We are going to call up not only Mr. Galvin and Mr. 
Moravec, but also Mr. Shostal, Mr. Drake, Ms. Thompson, and 
Commissioner Castro, can all come forward. Okay, and I thank 
each of the witnesses for being here. I'm going to ask them, 
because of the time limitations, to have each witness try to 
limit their testimony to five minutes maximum.
    When you see the yellow light, begin to end it up. And then 
we will try to get to questions. We are going to call on our 
two Federal officials first, since they were on the second 
panel. Then we will call on Ms. Castro, Mr. Shostal, Ms. 
Thompson and Mr. Drake. So, who is gong to begin first, Mr. 
Moravec or Mr. Galvin? Your choice.
    Mr. Galvin. I have prepared statements on all four of the 
bills before the committee, Mr. Chairman.
    Senator Schumer. Without objection all your statements and 
everyone's entire statement will be read into the record. So 
you do not have to worry if you do not get to do all of it, 
because it will be in the record.
    Mr. Galvin. Since the other witnesses are all testifying on 
New York bills, perhaps I should start with the non-New York 
bills.
    Senator Schumer. A good contrarian you are, Mr. Galvin.

 STATEMENT OF DENIS P. GALVIN, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Galvin. As it pleases the Chair. On S. 1175, a bill 
modifies the boundary of Vicksburg National Military Park to 
include a structure in downtown Vicksburg known as Pemberton's 
Headquarters. It would enable the Park Service to acquire this 
property from a willing seller and administer it as part of the 
park.
    The bill authorizes such sums as are necessary for those 
purposes. The Department supports S. 1175 with an amendment. 
Pemberton's Headquarters is a nationally significant resource. 
It was the headquarters of Confederate Lieutenant General John 
C. Pemberton, who occupied the city during the siege of 
Vicksburg from May 23 to July 4, 1863. And, in fact, it is 
where he discussed plans to surrender the city to General Grant 
and the Union forces on July 3.
    This was the most critical campaign of the Civil War in the 
West. The Union won Vicksburg on the day before it won 
Gettysburg. The national significance of this building was 
recognized in 1976 when it became a national historic landmark, 
and its acquisition provides an opportunity to expand the 
interpretation of the siege of Vicksburg and to interpret 
historical events in the years immediately following the Union 
victory there. It also fulfills the vision of Union and 
Confederate veterans who in 1895 made the recommendation that 
both Union and Confederate headquarters be included. Only Union 
headquarters were subsequently.
    We do have some reservations about the cost of this 
addition. However, we believe--actually in the Senate, there is 
$500,000 in the current appropriations bill to acquire it. 
There are additional costs for preserving the building, for 
stabilizing the building, and for interpreting the building. 
The amendment that we recommend suggests an authorization to 
include language that would require the Secretary of the 
Interior to acquire property in the environs of Pemberton's 
Headquarters for use for off-street parking, which is a problem 
in downtown Vicksburg.
    That concludes the summary of my statement on Vicksburg, 
Mr. Chairman. I will proceed to Craters of the Moon, which I 
can be very brief on. This is, as the other witness has said, 
simply a technical correction that will allow hunting in lands 
added to the monument by President Clinton's proclamation. We 
support this bill and have no suggested amendments.
    I would say, while the Department supports legislation to 
allow continued hunting in the National Park Service portion of 
the expansion area, this does not include support for opening 
to hunting that portion of the monument that existed prior to 
the proclamation of November 9, 2000. That portion of the 
national monument has always been, and should continue to be, 
closed to hunting. I would also like to clarify the 
Department's position on the specific issue, it does not 
indicate support for opening other areas of the National Park 
System to hunting.
    Niagara Falls, Mr. Chairman, we support the study. The bill 
authorizes $300,000 dollars to carry out this study. Although 
the Department supports enactment of this piece of legislation, 
we will not request funding for the study in this or next 
fiscal year, so as to focus available time on resources for 
completing 42 previously authorized studies. The study would be 
undertaken with the full involvement of representatives of the 
State of New York, the city of Niagara Falls and other 
communities along the Niagara River and interested 
organizations and citizens of this community.
    This, of course, is being done at the request of 
Representative LaFalce, who testified earlier, and yourself, 
Senator. You did reference the reconnaissance study that has 
just been finished, that did recommend a study that would see 
about the feasibility of establishing a heritage area here. 
Congress has established 23 heritage areas in other locations. 
Some of them have been very successful. I would just reiterate 
what you said in your opening remarks on this bill, that 
success or failure really seems to be determined by the extent 
of local involvement in the management and planning of the 
heritage area. And the principle purpose of this study, I would 
say, would be to develop that local involvement and local 
consensus on what needs to be preserved and developed in this 
area that is rich in cultural resources.
    We do recommend one minor change, and that is that we avoid 
a specific study area boundary, which is specified in section 
22. That would allow us to study the area generally and then 
make recommendations on a boundary at the conclusion of the 
study, as opposed to being limited to a particular area at the 
start of the study.
    Finally, Mr. Chairman, we have testimony on a portion of 
the Governors Island bill, that is the National Park Service 
has testimony on a portion. Mr. Moravec will testify on another 
section of the bill. The Department of the Interior is involved 
in section 4 of the bill which regards the conveyance of a 
portion of the island to the National Park Service. We defer to 
the General Services Administration's comments on section 5.
    Section 4 clarifies the status of the 20 acre portion of 
the island proclaimed a national monument by President Clinton, 
by stating that it is not subject to the sale requirement of 
the Balanced Budget Act of 1997. As you pointed out in your 
remarks, there is an informal opinion by the Department of 
Justice because of the way the proclamation was written that 
says that the national monument might be subject to the 
Balanced Budget Act. There is a Congressional Budget Office 
interpretation that quarrels with that to some degree. But this 
bill will definitely clarify the fact that the 1997 Budget Act 
does not apply and that is, I think, a very desirable 
amendment. The administration supports it. That concludes my 
statement on Governors Island.
    [The prepared statements of Mr. Galvin on S. 698, S. 1227, 
S. 1175, and H.R. 601 follow:]
 Prepared Statements of Denis P. Galvin F., Deputy Director, National 
                Park Service, Department of the Interior
                                 s. 689
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
689, a bill to convey certain properties on Governors Island, New York.
    The Department supports Section 4 of S. 689, regarding the 
conveyance of a portion of Governors Island to the National Park 
Service, but defers to the General Services Administration's comments 
on Section 5 regarding the conveyance of the majority of Governors 
Island to the State of New York.
    S. 689, the ``Governors Island Preservation Act of 2001'' would do 
two things. First, Section 4 clarifies the status of a 20-acre portion 
of the Island, which has been designated a national monument, by 
transferring permanent administrative jurisdiction of this parcel to 
the Secretary of the Interior and by stating it is not subject to the 
sale requirements of the Balanced Budget Act of 1997.
    Second, Section 5 would convey, notwithstanding Section 9101 of the 
Balanced Budget Act of 1997, the remainder of the island to the State 
of New York for no consideration. The Governors Island Redevelopment 
Corporation, a subsidiary of the Empire State Development Corporation, 
would administer the land conveyed to the State of New York. The 
conveyance would be subject to various terms and conditions imposed 
through the Act as well as other Federal laws.
    Governors Island is a 172-acre island located in a spectacular 
position in the heart of the New York Harbor, just off the southern tip 
of Manhattan. Much of the significance of the site is because of its 
location. The view from Governors Island of Lower Manhattan, of 
Brooklyn and the Brooklyn Bridge, and of the Statue of Liberty and 
Ellis Island are extraordinary. This site conveys as no other place 
does a sense of the entire force and expanse of Greater New York and 
New Jersey. It is the gateway to the commercial capital of the United 
States.
    The island's recorded history spans 400 years, beginning with its 
use as a fishing camp for the Manahatas Indians, as an estate for Dutch 
Governors of New Netherlands, as a lumber stand, pasture for raising 
cattle and goats, quarantine island, and game preserve. By the late 
1600s, fortification of New York Harbor was urged by the colony's 
English rulers, and Governors Island was considered a key strategic 
point.
    In 1776, General George Washington, recognizing its strategic 
value, established a battery there, along with batteries at other key 
locations in New York Harbor. Of obvious critical strategic 
significance to the defense of New York in the Revolutionary War and 
the War of 1812, Governors Island later played an important role in the 
Civil War and World War I and II. The United States Army occupied the 
island until 1966. At that time it became the base of operations for 
the U.S. Coast Guard's Atlantic Area Command and Maintenance and 
Logistics Command, Atlantic. In 1997 the U.S. Coast Guard ceased 
operations on Governors Island. On January 19, 2001, former President 
Clinton established the Governors Island National Monument by 
Presidential Proclamation. The 20-acre monument includes two historic 
forts, Castle Williams and Fort Jay.
    Castle Williams and Fort Jay, the dominant features of the 
Governors Island National Monument, are individually listed on the 
National Register of Historic Places, are New York City Landmarks, and 
are contributing features within the larger Governors Island National 
Historic Landmark District. Fort Jay and Castle Williams were erected 
over a fifteen-year period (c. 1796-1811) as part of the First and 
Second American Systems of Coastal Fortification. Both retain a high 
degree of historical integrity and represent the two major types of 
defense structures built and in use from the Renaissance Period to the 
Civil War.
    Fort Jay, a classic, four-bastioned fortification, was first 
constructed in the 1790's and later rebuilt in masonry and expanded 
between 1806-09. A distinctive feature of the fort is the quadrangle of 
colonnaded Greek Revival-style barracks that was built on the interior 
in the 1830s. Fort Jay represents the end of a three hundred-year 
tradition of bastion fortifications. Its low-profile design was 
intended to present as little wall as possible to enemy fire. The 
predominantly open landscape around the fort is a key element to the 
fort's significance because it retains a sense of how the fort appeared 
when originally constructed. Fort Jay has been well maintained and is 
one of the best examples of its kind in the country.
    Castle Williams, built between 1807 and 1811, was the prototype in 
this country for a harbor-oriented defense that could present as much 
concentrated firepower as possible. In stark contrast to Fort Jay, the 
walls of Castle Williams are high and fully exposed, a form reminiscent 
of a medieval castle. The exterior of Castle Williams is unchanged, but 
its interior contains extensive modifications associated with its later 
use as an army prison. Its integrity as a fortification remains high 
and its solid eight-foot thick masonry walls rendered it virtually 
indestructible. Castle Williams is considered by certain scholars to be 
the finest and most important example of its type in American coastal 
fortifications.
    The National Park Service manages a majority of decommissioned 
military installations and fortifications, including Castle Clinton on 
the southern tip of Manhattan and Fort Wood on Liberty Island, now the 
base of the Statue of Liberty. Gateway National Recreation Area 
includes key portions of Fort Wadsworth at the Verrazano Narrows and 
Forts Tilden and Hancock at the entrance to New York Harbor. The 
fortifications on Governors Island were an integral component of this 
network and historically were the geographic and administrative center 
of New York Harbor's defenses.
    Over the past several years, the U.S. Coast Guard and General 
Services Administration (GSA) have developed several valuable 
inventories, reports, and plans for Governors Island, and have 
conducted an extensive public review of the future use of the island. 
These documents include the ``Governors Island Preservation and Design 
Manual,'' a land use study, including comprehensive land and facility 
assessment, an environment impact statement, archaeological assessment, 
and other important information needed for the future planning and 
management of the monument and island. During GSA's public review 
period, there was widespread public testimony favoring park 
establishment and preservation of historic resources. Subsequently, the 
National Park Service addressed feasibility and operational issues 
during a weeklong workshop.
    There continues to be widespread local and state support for this 
national monument. On January 19, 2001, former President Clinton 
established a Governors Island National Monument by Presidential 
Proclamation. On March 28, 2001, Interior Secretary Gale Norton sent 
some 200 letters to local elected officials of all political 
affiliations seeking their ideas on proper and appropriate land use 
plans for the national monuments that had been created in 2000 and 
2001.
    To date, all letters received regarding the Governors Island 
National Monument have been overwhelmingly positive. The Secretary and 
our Northeast Regional Office have received letters from the Governor 
of New York, several State Assembly leaders, New York City Community 
Boards, the City Council, and the Governors Island Group, a coalition 
of twelve New York City preservation groups. We would be pleased to 
provide these to the subcommittee to be made part of the hearing 
record.
    Section 4 of S. 689 would transfer administrative jurisdiction for 
the monument from GSA to the National Park Service. The bill would make 
it clear that the monument is not subject to the sale requirements of 
the Balanced Budget Act of 1997. We believe this legislation will 
eliminate any remaining questions and assure the permanent preservation 
and protection of the historic fortifications on Governors Island while 
making them accessible to the public.
    Section 5 of S. 689 is the conveyance of the majority of Governors 
Island to the State of New York. The State would have the primary 
responsibility for the island's redevelopment, operation and 
maintenance. We defer to the General Services Administration on those 
aspects of this legislation.
    We recommend only one minor amendment to this bill, and that is for 
GSA to assign a date or GSA file number for the ``Governors Island 
Preservation and Design Manual,'' to clarify which version of the 
guidelines apply.
    Governors Island is a national treasure. S. 689 would provide the 
National Park Service the authority and resources to properly 
administer the national monument and to work with the State and City of 
New York to ensure that the island remains a treasure for all the 
American people.
    This completes my statement. I will be happy to answer any 
questions the committee may have regarding this matter.
                                s. 1227
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1227, a bill to authorize the Secretary of the Interior to conduct a 
study of the suitability and feasibility of establishing the Niagara 
Falls National Heritage Area in the State of New York. The bill 
authorizes $300,000 to carry out this study. The Department supports 
enactment of this bill with one recommended amendment.
    Although the Department supports enactment of this piece of 
legislation, we will not request funding for this study in this or the 
next fiscal year, so as to focus available time and resources on 
completing previously authorized studies. As of now, there are 42 
authorized studies that are pending, and we only expect to complete a 
few of those this year. We caution that our support of this legislation 
authorizing a study does not necessarily mean that the Department will 
support designation of this heritage area. The study would be 
undertaken with the full involvement of representatives of the State of 
New York, the City of Niagara Falls, other communities along the 
Niagara River, and interested organizations and citizens in the region.
    At the request of Representative John J. LaFalce and Senator 
Charles E. Schumer, representatives of the National Park Service 
undertook reconnaissance visits to Niagara Falls this year and met with 
state and local officials and representatives of interested 
organizations. These preliminary findings indicate that a national 
heritage area feasibility study could be justified.
    The Niagara River flows for 35 miles between Lake Erie and Lake 
Ontario and includes the rapids, Niagara Falls, and the Niagara River 
Gorge. Eight parks operated by the State of New York are located along 
the river and within the gorge. The river forms a boundary between the 
United States and Canada.
    Niagara Falls is an internationally significant natural resource 
that attracts between 8 to 10 million visitors a year. It is one of the 
most well-known destination attractions in the United States and 
Canada. The Niagara River Gorge is an exceptionally scenic corridor, 
carved by the movement of the falls from its original location near 
Lewiston, New York (10,000 to 15,000 years ago) to its present location 
10 miles upstream at the City of Niagara Falls. Besides its scenic 
values, the gorge has been cited as a world-class location of fossils 
from the Upper Ordovician and Silurian periods.
    The Niagara River region contains a wide variety of flora and 
fauna. Recent inventories completed for the Canadian Niagara Escarpment 
Commission identified 1,623 plant species including unique miniature 
old growth eastern white cedars. The commission's fauna inventories 
also include 50 mammal species, 17 amphibian species, 99 fish species, 
and 17 species of reptiles. Bird inventories identify 342 species 
including 19 separate species of gulls. One-day counts of gull 
populations have reached over 100,000 individuals. In recognition of 
this critical habitat, the National Audubon Society has designated the 
Niagara River as a Globally Important Bird Area.
    The region is also rich in cultural resources related to the 
history of the United States and Canada. It has significant 
associations with Native American habitation and early European 
contact, the French and Indian War, the American Revolution, and the 
War of 1812. It was also a major link in the Underground Railroad for 
African Americans escaping slavery to enter Canada. The existence of 
ample water made it an early site for hydroelectric power, and it 
remains an important source to this day.
    There is well-known national interest in the resources of the 
region. Three National Historic Landmarks have been designated along 
the Niagara River. The Adams Power Transformer House, built in 1895, is 
the only surviving structure of a hydroelectric facility that has been 
called, ``the birthplace of the modern hydroelectric power station.'' 
The Niagara Reservation, which includes the American Falls, was the 
first state park in the nation created under eminent domain, and 
originally designed by Frederick Law Olmsted. The Colonial Niagara 
Historic District, within the communities of Lewiston and Youngstown, 
was a key portage route linking interior North America and the Atlantic 
seaboard until the late 1700s. It also contains extant resources 
associated with Native American occupation and early European contact. 
Historic Fort Niagara on the shore of Lake Ontario is an important 
component of the district. Within the City of Niagara Falls and the 
communities of Lewiston and Youngstown there are 14 sites listed on the 
National Register of Historic Places.
    The National Park Service has defined a national heritage area as a 
place designated by Congress where natural, cultural, historic and 
scenic resources combine to form a cohesive, nationally distinctive 
landscape arising from patterns of human activity shaped by geography. 
It is not the role of the National Park Service to manage or regulate a 
national heritage area, but to assist the variety of local partners and 
landowners who work together to achieve the common goal of protecting 
and interpreting important places where people live and work.
    Despite the richness of the natural and cultural resources in the 
area, there is widespread belief that the United States side of the 
falls has never fully achieved its tremendous potential for visitors 
and for the local communities. A heritage partnership framework has 
been advocated as a way for the many important partners in the region 
to further the contribution of the Niagara Falls region to the United 
States and to the people of New York. We have found considerable 
support for this idea. The study would permit us to consider the 
opportunity further, and determine if a partnership framework is the 
best way to protect natural and cultural resources in the region.
    We would recommend one amendment to the bill to provide maximum 
flexibility with regard to the study area. Currently, Section 2(2) 
unnecessarily defines the study area as the segment of the Niagara 
River in Niagara County, New York that extends from Niagara Falls to 
the mouth of the Niagara River at Lake Ontario. The National Park 
Service study process provides for developing a focused study area 
addressing the full assemblage of resources relating to the potential 
heritage area themes, and including the strongest range of capable and 
enthusiastic partners. This approach permits an area to be focused 
enough to be manageable, but broad enough to include the key partners 
and resources necessary. We recommend that Section 2(2) be amended to 
avoid a specific study area boundary at this time to allow us to focus 
on all resources specifically related to the Niagara Falls theme and 
area.
    Mr. Chairman, the Administration supports this bill with the 
recommended amendment. It provides an opportunity to investigate the 
feasibility of establishing a national heritage area associated with 
one of the nation's most important and best-known natural resources. We 
look forward to working in close partnership with the State of New 
York, the City of Niagara Falls, and the communities and organizations 
within the Niagara Falls region to explore the possibility of national 
heritage area designation.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any questions that you or 
the members of the committee may have.
                                s. 1175
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1175, which would modify the 
boundary of Vicksburg National Military Park in Vicksburg, Mississippi, 
to include the property known as Pemberton's Headquarters. S. 1175 
would enable the National Park Service to acquire this property from a 
willing seller and administer it as part of the park. The bill 
authorizes such sums as necessary for this purpose.
    The Department supports S. 1175, with an amendment. Pemberton's 
Headquarters is a nationally significant resource that is well-suited 
for use as a visitor site, and its inclusion in Vicksburg National 
Military Park would enable the National Park Service to add an 
important dimension to the interpretation of Civil War and post-Civil 
War events in the Vicksburg area.
    Pemberton's Headquarters is the building that Confederate Lt. 
General John C. Pemberton occupied during the siege of the city of 
Vicksburg led by Union Major General Ulysses S. Grant from May 23 to 
July 4, 1863. It was in this building that Pemberton held a council of 
his chief officers on July 3, 1863 to discuss plans for surrender of 
the city, which occurred the following day. The campaign for Vicksburg 
is considered by many military historians to have been the most 
critical campaign of the Civil War, as it severed the Confederacy 
geographically and cut vital supply lines to the Confederate states and 
thus was pivotal in bringing about the Confederacy's defeat.
    The national significance of Pemberton's Headquarters was 
recognized through its designation as a National Historic Landmark in 
1976. The building, which was constructed from 1834-1836, is located in 
Vicksburg's historic district. It is adjacent to Balfour House, which 
served as the headquarters for the Union occupation forces following 
the surrender and is open to the public. And, it is four blocks from 
the historic Warren County Courthouse, where the military 
administration of the occupied city was conducted through 
Reconstruction. A visitor site at this location would give the National 
Park Service the opportunity not only to expand its interpretation of 
the siege of Vicksburg, but also to interpret historical events in the 
years immediately following the Union victory there. It would help the 
service fulfill legislation passed by Congress in 1990 calling on the 
park to ``interpret the campaign and siege of Vicksburg from April 1862 
to July 4, 1863, and the history of Vicksburg under Union Occupation 
during the Civil War and Reconstruction.''
    Acquisition of Pemberton Headquarters for inclusion in Vicksburg 
National Military Park would also fulfill the vision of the Union and 
Confederate veterans who, in 1895, petitioned Congress to establish a 
national military park at Vicksburg similar to those previously 
established at Chickamauga and Chattanooga, Antietam, Shiloh, and 
Gettysburg. Those veterans recommended that the headquarters of both 
Union and Confederate commanders be included in the park. However, 
while the site of Grant's headquarters was included in the park, that 
of Pemberton's was not due to the objections of the then-owner of the 
property. The current owner, who has used the building for a bed-and-
breakfast in recent years, would now like to sell the property to the 
National Park Service so that its place in history will be secure.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog and is concerned about the development and life-
cycle operational costs associated with expansion of parks already 
included in the National Park System. With that in mind, we have some 
concerns about the ability of the National Park Service to assume the 
costs of acquiring, preserving, and operating the Pemberton 
Headquarters property within current budget constraints.
    The National Park Service has not yet done an appraisal of the 
property, but the agency's land acquisition experts have estimated that 
it might cost as much as $700,000 to acquire. The service also does not 
have an estimate of the cost of preserving the building and the grounds 
and making the site accessible to visitors. Stabilizing the building 
alone would cost an estimated $228,000, but the cost of more extensive 
preservation would need to be determined through studies. Those studies 
would cost an estimated $191,000. The service has made a preliminary 
estimate that the cost of operating and maintaining the site would be 
approximately $425,000 annually, but actual costs would depend on a 
number of unknown factors, including the extent of preservation done on 
the site.
    The Department recommends that S. 1175 be amended to include 
language that would authorize the Secretary of the Interior to acquire 
property in the environs of Pemberton's Headquarters to use for off-
street parking, as well as related visitor or administrative 
facilities, as no off-street parking currently exists at the site. This 
would increase acquisition, development, and operational costs of the 
site. We would be pleased to work with the committee to develop an 
amendment for that purpose.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                h.r. 601
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to appear before you today to present the views of the 
Department of the Interior on H.R. 601, a bill to redesignate certain 
lands within Craters of the Moon National Monument:
    The Department supports H.R. 601. The House-passed bill would 
redesignate the NPS portion of the monument expansion as a national 
preserve and authorize the Secretary to permit hunting on those lands. 
The effect, therefore, would be to restore hunting to lands on which it 
had been allowed when they were under the jurisdiction of the Bureau of 
Land Management. Designation as a national preserve is appropriate in 
this case because the category was established for units of the 
National Park System that are created primarily for the protection of 
certain resources, while activities such as hunting may still be 
allowed if they do not jeopardize the natural values.
    Craters of the Moon National Monument was established by 
Proclamation of President Calvin Coolidge in 1924 for the purpose of 
protecting the unusual landscape of the Craters of the Moon lava field. 
This unusual landscape was thought to resemble the surface of the Moon 
and the Proclamation stated that the area ``contains many curious and 
unusual phenomena of great educational value and has a weird and scenic 
landscape peculiar to itself.'' Between 1924 and 1962, the monument was 
expanded and boundary adjustments were made through four presidential 
proclamations. In 1996, a minor boundary adjustment was made by section 
205 of the Omnibus Parks and Public Lands Management Act of 1996 (110 
Stat. 4093; Public Law 104-333). On November 9, 2000, Presidential 
Clinton's proclamation expanded the 53,440-acre monument by adding 
approximately 661,287 acres of federal lands.
    The expanded monument includes almost all the features of basaltic 
volcanism, including the craters, cones, lava flows, caves, and 
fissures of the 65-mile long Great Rift, a geological feature that is 
comparable to the great rift zones of Iceland and Hawaii. It comprises 
the most diverse and geologically recent part of the lava terrain that 
covers the southern Snake River Plain, a broad lava plain made up of 
innumerable basalt lava flows that erupted during the past 5 million 
years.
    Prior to the recent proclamation, Craters of the Moon National 
Monument was managed solely by the National Park Service. The expansion 
area of the monument, however, consists of lands that had been 
administered by the Bureau of Land Management. The proclamation gives 
both agencies responsibilities for administering the monument 
cooperatively. The National Park Service has the primary management 
responsibility for the old monument, plus the approximately 400,000-
acre portion of the expansion area that consists of exposed lava flows. 
The Bureau of Land Management is responsible for administering the 
remaining portion of the monument.
    The proclamation specified that the NPS portion of the monument 
expansion is to be managed under the same laws and regulations that 
applied to the original monument. Since hunting has not been authorized 
in the original Craters of the Moon National Monument, the effect of 
the proclamation was to prohibit hunting in the NPS portion of the 
monument expansion. However, the Department supports a clarification of 
this language to allow the continued use of the lands in the expanded 
monument area for hunting. Hunting in the portion of the monument 
administered by the Bureau of Land Management is not affected.
    Furthermore, although the proclamation specifies that the National 
Park Service has jurisdiction over the exposed lava flows, the on-the-
ground reality is that there is not a precise delineation between areas 
of vegetation and areas of bare rock, making it difficult in many cases 
to determine the exact location of the boundary. For the average 
visitor or hunter, it would be difficult, if not impossible to 
distinguish whether they were on BLM lands or NPS lands, at least in 
the vicinity of the jurisdictional boundaries.
    The Department also recognizes that legislation to provide the 
authority for hunting within the NPS-managed portion of the monument 
expansion would give the Superintendent the ability to work 
cooperatively with the State of Idaho on issues concerning adjacent 
landowners. For example, hunting could be used as a tool in mitigating 
agricultural depredation caused by elk grazing on alfalfa crops on 
privately owned lands outside the monument.
    While the Department supports legislation to allow continued 
hunting in the NPS portion of the Craters of the Moon expansion area, 
this does not include support for opening to hunting the portion of the 
monument that existed prior to the proclamation of November 9, 2000. 
That portion of the national monument has always been, and should 
continue to be closed to hunting. In addition, I would like to clarify 
that the Department's position on this specific issue does not indicate 
support for opening other areas of the National Park System to hunting.
    This concludes my testimony on H.R. 601. I would be glad to answer 
any questions you may have.

    Senator Schumer. Well thank you, and very much appreciate 
the administration's support for that part of our proposal, 
which is very welcome and new to me. And I want to make sure 
Commissioner that I pronounce your name correctly, it is 
Moravec?
    Mr. Moravec. Very well done--Moravec.
    Senator Schumer. So we have Commissioner F. Joseph Moravec. 
He is the Commissioner of Public Buildings of GSA.

    STATEMENT OF F. JOSEPH MORAVEC, COMMISSIONER OF PUBLIC 
           BUILDINGS, GENERAL SERVICES ADMINISTRATION

    Mr. Moravec. Good afternoon, Mr. Chairman. My name is Joe 
Moravec and I am the Commissioner of General Service 
Administration's Public Buildings Service. Thank you for 
inviting me here today to discuss S. 689 and the status of 
Governors Island.
    Located in New York Harbor, only one half mile off the 
southern tip of Manhattan, Governors Island is a truly unique 
facility comprised of 172 acres improved by 225 buildings 
comprising about 3 million square feet. Half of the island is 
designated as a National Historic District, with architecture 
dating back to the 18th and 19th centuries. The island was home 
to the U.S. Army until 1966 when the U.S. Coast Guard took 
possession of the island for its Atlantic Command Headquarters.
    For over 30 years the Coast Guard occupied the island, and 
in 1995 they announced that they would vacate. In 1996 the 
Coast Guard's residential components began to leave, and in 
1997 its operational units left. With funding provided by GSA, 
the Coast Guard provides a caretaker detachment to protect and 
maintain the island. Tom Denehey, a Coast Guardsman who is in 
charge of that effort, is really doing a superb job and I am 
pleased to report that the island is in good to excellent 
condition throughout. I've been there myself and can report 
that to you personally.
    Since fiscal year 1998 GSA has expended between $6 and $10 
million dollars per year to protect and maintain the island. 
Coast Guard's maintenance of this historic facility recently 
garnered special recognition by the New York State Parks and 
Recreation Department at its annual award ceremony in May 2000. 
The Balanced Budget Act of 1997 requires that the island be 
disposed of at fair market value no earlier than fiscal year 
2002. It also states that before a sale is made that the State 
of New York and the city of New York shall be given the right 
of first offer to purchase all or part of Governors Island at 
fair market value.
    Therefore, over the last 4 years we have been actively 
collaborating with the State of New York, the city of New York, 
community groups and local citizens on the reuse of Governors 
Island. Thus far, we have completed a land use study, an 
environmental impact statement consistent with NEPA, a Fair 
Market Value Appraisal and a Historic Design Manual. 
Representatives of the State and the city participated with GSA 
and played a key role in developing the current planning 
documents.
    To better educate and inform the public about the island, 
we offer monthly tours. We have also arranged for special tours 
for the Regional Plan Association, the Metropolitan Museum of 
Art and other interested organizations. Through an open, public 
process we have made the necessary preparations for a disposal 
by the end of fiscal year 2002, consistent with existing law.
    Through several formal letters, two major conference calls 
and numerous telephone conversations with the city and the 
State, we have kept the lines of communication open with the 
city. I would like to add that this Thursday representatives of 
Governor Pataki's office will be meeting with GSA people in 
Washington in continuance of this process. As I understand the 
proposed law, the Governors Island Preservation Act of 2001, 
portions of the island not included in the national monument 
designation would be conveyed at no cost from GSA to the State 
of New York. While my options are limited under current law, I 
will faithfully carry out any and all duly enacted statutes.
    This concludes my prepared statement. Of course, I am 
available to answer any questions.
    Senator Schumer. Thank you, Mr. Moravec. And now, we have 
Ms. Bernadette Castro, who has done an excellent job as our 
leader on our parks issues. And I want to make sure I get her 
exact title correct, because it is not just called parks. She 
is the commissioner of the Office of Parks, Recreation, and 
Historic Preservation, and done a great job, and we are glad to 
see you here, commissioner.

 STATEMENT OF BERNADETTE CASTRO, COMMISSIONER, NEW YORK STATE 
     OFFICE OF PARKS, RECREATION AND HISTORIC PRESERVATION

    Ms. Castro. Thank you so much, Mr. Chairman, for this 
opportunity. And, in the interest of time, I think that, 
certainly, I share your opening remarks about Niagara Falls as 
a potential national heritage area. They were very well put, 
and I think that Senator Clinton and Congressman LaFalce, and 
Mr. Galvin, thank you for your remarks. We in New York State 
certainly concur, and we are looking forward to a partnership 
with the Federal Government and the National Parks Service, as 
it relates to a possible national heritage area for the Niagara 
Falls region.
    You stated earlier, as did Congressman LaFalce, that 
Governor Pataki has really done a lot in the last several 
years. I mean, we are talking $42 million of start projects; we 
are talking $5.2 million for the creation of, really, an 
economic zone under the auspices of Chairman Gardano of Empire 
State Development. A lot is happening. We are the stewards of 
eight parks along the Niagara River, six of them being in the 
area that we hope will be a national heritage area, beginning 
with the natural wonder of one of the greatest sites in the 
world, Niagara Falls--the great Olmstead, Frederick Law 
Olmstead Park, Niagara Reservation or, we like to call it, 
Niagara Falls U.S.A., on our side of the river.
    We have the beautiful American rapids; we have so much 
going for us in a natural way. But the whole community, where 
the National Park Service can really be a big help--and this is 
why we thank you for your support. It is a bipartisan effort, 
which is a wonderful way to start off. And, you know, we are 
looking forward to the Park Service's expertise and linking of 
the community. We love being stewards of our parks and historic 
sites, but when it comes to linking the community on an 
international level, I mean, we are talking about Niagara 
Falls; we have people from all over the world. In our park 
alone, we see eight million visitors a year. That is more than 
Yellowstone and Yosemite combined, on an annual basis.
    But the visitors do not stay long enough. So we are doing a 
lot to correct that from a parky point of view, if you will. 
There is going to be an eight-mile adventure hike; there is 
going to be a wonderful new bike path, Senator. And we do hope 
that you will join us for a bike ride.
    Senator Schumer. Put me down.
    Ms. Castro. Yes, I am going to put you down. I am going to 
search for a $75 bicycle, by the way, to be sure it is 
ethically within our guidelines. But I would love to have you 
start a bike ride and tour like you did in your home district 
of Brooklyn, your old home district, your hometown. So we are 
fully supportive of this partnership. We think it can work. We 
do believe that State Parks and Governor Pataki, at Governor 
Pataki's direction, want it to work. We need Federal help. We 
believe that if we have this designation, there can be Federal 
dollars that will come to the region.
    And Niagara Falls has a tremendous amount of potential. In 
fact, ironically, there was another recent New York Times 
article that said some of the buildings, some of the sort of 
funkiness, if you will, is hot right now. The design editor of 
the New York Times is asking people to revisit Niagara Falls. 
So I think we have unlimited potential. We need this 
partnership; we need the $300,000 as well, Mr. Galvin. I think 
you need it; the Park Service needs it. We also need it to be 
done in 18 months. Three years is a long time. We need it, and 
we need it fast.
    [The prepared statement of Ms. Castro follows:]
 Prepared Statement of Bernadette Castro, Commissioner, New York State 
         Office of Parks, Recreation and Historic Preservation
    Thank you Chairman Akaka, Senator Schumer and the other members of 
the subcommittee for this opportunity to comment on S. 1227, 
legislation authorizing the Secretary of the Interior to conduct a 
study of the suitability and feasibility of establishing the Niagara 
Falls National Heritage Area.
    The Niagara Falls area is a community rich in history, cultural 
resources and dramatic natural wonders. Through the leadership of 
Governor George E. Pataki, New York State has and will continue to make 
significant investments in spurring economic revitalization in the 
area. We are here today to advise the committee that we view the 
proposal for the creation of a Niagara Falls National Heritage Area as 
an extension of the state's efforts. We very much appreciate the 
bipartisan effort that has led us to this federal legislative proposal.
    The gateway to the Niagara area is Niagara Reservation State Park 
which contains Niagara Falls, a National Natural Landmark of 
international significance. Niagara Reservation is the oldest 
continuously operated state park in the nation; a park that was 
established by state action in 1885 to ensure that it would be enjoyed 
by all for generations to come; a park that was created through the 
vision of Frederick Law Olmsted and a facility which each year sees 
more visitors than Yosemite and Yellowstone National Parks combined. 
Niagara Reservation State Park is a flagship park and one to which we 
have committed significant capital and operating improvements as part 
of an overall state vision for the area.
    Over the past several years, Governor George E. Pataki has 
announced $45 million dollars for state projects in Niagara Region 
state parks aimed at improving visitor satisfaction. This funding will 
support projects which will improve access to the park as well as to 
the lower gorge; create an eight mile Great Gorge Railway Trail; 
transform the Schoellkopf Museum into a Niagara Gorge Discovery Center; 
restore the historic Olmsted landscape on Goat Island; provide new 
directional and interpretive signage throughout the park; funding for 
new alternative fuel trolleys and increase the operating staff 
available to serve the public. In all, there are 15 separate projects 
that we are currently undertaking to improve the visitor experience at 
this park and the other park facilities, which we operate in the area.
    In addition, the Governor has also recommended in the Executive 
Budget $5.1 million for USA Niagara Development Corp Inc., a subsidiary 
of Empire State Development Corporation whose sole mission is the 
support and promotion of economic development and revitalization in 
Niagara Falls. The Governor has also accelerated state aid to the City 
and provided supplemental state assistance. Other state agencies have 
also committed tens of millions of dollars to the area including 
transportation infrastructure improvements.
    State Parks has ample experience in developing heritage area plans. 
Some of our state heritage areas date to the early nineteen eighties 
and may have served as models for the national heritage area program. 
Some have just recently been completed. We also are working in a 
cooperative fashion with the National Park Service on plans for the 
Hudson River Valley National Heritage Area and a plan that is in its 
infancy for the Erie Canalway National Heritage Area. We know first-
hand that plans of this nature can provide for the protection and 
promotion of cultural and natural resources and create expanded 
economic opportunities in communities through historic preservation and 
expanding heritage tourism, the fastest growing segment of the tourism 
industry. Most importantly, such plans can overcome the identified 
weaknesses of numerous past plans for the Niagara area by better 
involving the private sector and bringing new resources to the area. We 
look forward to a continued working relationship with our colleagues in 
the National Park Service.
    New York State Parks very much wants to improve the connection 
between our park facilities and the surrounding communities. This is 
particularly true for the City of Niagara Falls. Each year, over 8 
million visitors come to Niagara Reservation. Our interest is to not 
only attract park visitors but to keep them in the area. We want them 
to spend more time in the city and to enjoy other cultural resources in 
the area such as Old Fort Niagara State Historic Site, Artpark and the 
Lower Landing Archeological District in Lewiston. A National heritage 
area plan and subsequent federal funds will help us accomplish that 
goal.
    The Governor is committed to revitalizing the Niagara Falls area 
through all these initiatives. The State is a diligent steward of 
Niagara Falls Reservation State Park and we appreciate the National 
Park Service agreeing with this assessment. Our interest in this 
legislation is based on what it can do for the City of Niagara Falls 
and the greater Niagara Community: how it can build linkages between 
the park and the city; how it can fill the gap between parks with an 
enriched visitor experience and broaden that experience; and how it can 
connect Niagara Falls with Fort Niagara State Park and fill in the 
miles between with an unmatched tourism experience. We welcome the 
resources and expertise of the National Park Service to assist the 
state and local communities in achieving these goals.
    In relation to the language of S. 1227, I note that the legislation 
provides three years for the study to be completed. I would recommend 
revising that reporting date. The Niagara Falls community needs 
expanded economic opportunity now, and we must act as expeditiously as 
possible. Considering how quickly our state efforts are moving forward, 
I would like to see that study completed one year from enactment. 
However, ensuring that the study is completed within 18 months may be 
acceptable.
    I thank you once again for this opportunity to share with you the 
comments and support of the Office of Parks and the State of New York 
on Senate Bill 1227.

    Senator Schumer. Well, thank you, commissioner. And let me 
just say, I agree with you. Mr. Galvin talked about the Park 
Service. That is their view, but we in the Senate have 
earmarked some money for this, and I know Congressman LaFalce 
will work for it to be done there. And the idea, I think, when 
the question period comes, I will ask Mr. Galvin about the 
ability of speeding this up a little bit.
    Let me change the order a little bit and take the two 
witnesses from Niagara Falls first, and then the two witnesses 
from the Governors Island perspective. So let me introduce John 
Drake. John is the director of community development of the 
city of Niagara Falls. His boss, Mayor Elia, who's been 
mentioned by both Senator Clinton, Congressman LaFalce, as well 
as myself, is a really enthusiastic supporter. And we thank 
you, Mr. Drake, for coming.

STATEMENT OF JOHN C. DRAKE, DIRECTOR OF COMMUNITY DEVELOPMENT, 
                   CITY OF NIAGARA FALLS, NY

    Mr. Drake. On behalf of Dr. Irene Elia, the mayor of the 
city of Niagara Falls and the city council, we would like to 
thank you, Senator Schumer, for pursuing the initiative. In the 
bill, S. 1227, we would like to thank Senator Akaka and Senator 
Thomas for allowing us to present testimony before the 
subcommittee.
    To properly place Niagara Falls in an historic setting, you 
have to remember that Niagara Falls has a significant worldwide 
reputation as a natural scenic resource. The visionaries of the 
Free Niagara Movement, one of the first environmental movements 
in this country in the late 1800's, secured the falls as a 
special place to preserve for nature, and were the first to 
establish a Niagara vision. It is the vision for Niagara that 
captured the imagination of people and compelled them to act. 
Frederick Law Olmstead articulated that vision in the first 
State park in the country.
    New York State Parks, especially under Commissioner Castro, 
has provided a great deal of assistance to us and to provide 
greater access to the natural environment of the falls and the 
gorge. Niagara Falls is truly unique in multiple ways. And 
although the Federal study did a great job, I would just like 
to impress on you the importance of Niagara Falls in the 
history and geology of the world.
    The gorge 8 miles from the falls is a unique eco-system. 
The trees in the gorge have been found to be up to 1,200 years 
old, live trees. The gorge is also one of the largest natural 
whirlpools in the world. Historically, we have been involved in 
almost every major aspect of the growth of this country. As the 
land of the Senecas, it was first felt by the French trappers 
and explorers of the early 1700's. Samuel Champlain and LaSalle 
built the--that explored the upper Mississippi. That was one 
half mile from where I live, actually, on Niagara River.
    The Fort at Youngstown has been held by the French, 
British, and Americans for over 300 years. They mention John 
Jay. This was Jay treaty fort. And the areas and the sites of 
many of the major battles--War of 1812, the French and Indian 
War. Fort Niagara was fortified again to protect us against 
possible Canadian invasion during the Civil War. And it was the 
last stop on the Underground Railroad on the way to freedom in 
Canada.
    Not just political history is made in Niagara Falls; 
economic history as well. Our area was the birth of the large-
scale electric hydro production that harnessed the power of 
Niagara. And actually, it was the Silicon Valley of the 1900's, 
with the birth of the electro-chemical industry, aluminum 
industry. It was the boom times. In 1900, Buffalo was the 
eighth largest city in the United States. I think in the 
report, they mention Buffalo-Niagara is now down to somewhere 
around 53rd.
    Unfortunately, the city has experienced a gradual decline 
in its once broad industrial base, and it has also paid the 
price for its role as a pioneer in electro-chemicals. The 
population of our city, which was once over 100,000, currently 
stands at 55,000. We are also widely known as the site of Love 
Canal, which warned the country of the downside of past 
industrialization.
    The historic national prosperity of the 1990's bypassed 
Niagara Falls completely. Recently, a new awareness is 
developing that the real future of Niagara is linked to its 
geological, environmental, and historic uniqueness. Much like 
the movement in the 1890's, the Free Niagara Movement, citizen 
groups have mobilized to gain better access to the gorge, now 
separated by a four-lane expressway of a bygone era.
    The city, now partnered with the State through Commissioner 
Castro, has attempted to provide greater access to the gorge 
and improve pedestrian and bike access to this wonder. The 
State is creating a bike path on the lower river. The city of 
Niagara Falls is creating a bike path on the upper river, which 
is a joint cooperation with the State Power Authority and State 
DOT. So it is a collaborative effort on everybody's part to 
create this new vision for Niagara.
    The State corporation, U.S.A. Niagara, as announced by 
Governor Pataki, set up a 197 acre special zone in downtown 
Niagara Falls, adjacent to the park, and has made a commitment 
of $100 million to the effort. This is an area of failed 
development, failed urban renewal, and looks over at Niagara 
Falls-Ontario, which has seen over a billion dollars in new 
development in recent years. The Governor has also proposed 
Seneca Nation gaming in the zone.
    We are not speculating on what the positive impact of this 
bill could be, and the possible impact of a national heritage 
corridor--the feasibility study. We just have to look across 
the border. The Canadian government, provincial government, and 
the city of Niagara Falls have done a great job in 
collaborative efforts. We feel that ourselves, with a new 
vision, the State of New York through Commissioner Castro's 
office, and the Federal Government through the National Park 
Service can recreate a new Niagara that will rival the glory of 
our bygone era.
    [The prepared statement of Mr. Drake follows:]
Prepared Statement of John C. Drake, Director of Community Development, 
                       City of Niagara Falls, NY
    My name is John Carl Drake and I am the Director of Community 
Development for the City of Niagara Falls, NY. On behalf of Mayor Irene 
Elia and the City we would like to thank Senator Schumer for pursuing 
this initiative investigating the possibility of a Niagara Falls 
National Heritage Corridor in Bill S. 1227. We thank Senator Akaka and 
Senator Thomas for allowing the City to present testimony before the 
Subcommittee on National Parks.
    A 1992 planning document by Sasaki Associates stated ``Niagara 
Falls and the surrounding area has a significant worldwide reputation 
as a natural scenic resource and event. The visionaries of the ``Free 
Niagara Movement'' of the late 1800's secured the Falls as a special 
place to be reserved for nature, and were first to establish a Niagara 
``vision''. It is this vision for Niagara that captured the imagination 
of people and compelled them to act. Fredrick Law Olmsted articulated 
that vision for the first state park in the country (The Niagara 
Reservation).'' The New York State Parks has recently taken steps to 
expand the vision of Niagara articulated by Olmsted and has taken an 
active role under Commissioner Castro to provide greater access to the 
unparalleled natural environment of the Falls and the Gorge.
    Niagara Falls is truly unique in multiple ways, it is a natural 
phenomenon located in an urban setting, it is one of the most widely 
recognized wonders both nationally and internationally. Two countries, 
Canada and the United States, share this attraction. It has been 
estimated that combined visitation on both sides of the border is close 
to 15 million annually.
    Niagara is more than just the Falls. The Gorge extending 8 miles 
from the Falls to Lewiston is a unique ecosystem. Trees in the Gorge 
have been found to be up to 1,200 years old. The gorge also has one of 
the largest naturally occurring whirlpools in the world. Historically, 
this land of the Iroquois has been important in the development of the 
country. The first French explorers and trappers came to the region in 
the early 17th century. Samuel Champlain De LaSalle built the Griffin 
in Niagara Falls that he used to first explore the Mississippi, The 
Fort at Youngstown has been held by the French, the British and 
Americans in the last 300 years. The area was the site of many of the 
major battles of the war of 1812 and French and Indian Wars. Niagara 
was the last stop on the Underground Railroad on the way to freedom in 
Canada. Not just political history was made in Niagara Falls. Our area 
with the birth of electric production that harnessed the power of 
Niagara was the Silicon Valley of 1900. We were one of the birthplaces 
of major electric production and the electrochemical industry.
    Unfortunately, the City of Niagara Falls has experienced a gradual 
decline in its once proud industrial base, and has also paid a price 
for its role as a pioneer in electro chemicals. The population of our 
City, which was over 100,000 in 1960, currently stands at 54,000. We 
are also widely known as the site of the Love Canal, which warned the 
country of the downside of past industrialization. The prosperity of 
the 1990's bypassed Niagara.
    Recently, a new awareness is developing that the real future of 
Niagara is linked to its geological, environmental and historical 
uniqueness. Citizens groups mobilized to gain better access to the 
gorge, now separated by a four lane expressway of a bygone era. The 
City, now partnering with the State of New York, through Commissioner 
Castro is attempting to provide greater access to the gorge and improve 
pedestrian and biker access to this wonder. Planning efforts are 
underway to make us ``the City in the Park'' rather than an old 
chemical town that has a park near it. The State of New York has 
recognized the importance of Niagara Falls. Through a State Corporation 
it has designated a 197 acre parcel adjacent to the State Park as a 
special development zone and has made a $100 million commitment to the 
area. The area is an area of failed development and Urban Renewal that 
looks over at Niagara Falls Canada, which has seen $1.0 billion of new 
investment in recent years. The Governor has also proposed Seneca 
Nation gaming in the zone.
    We are not speculating on what the positive impact of reinventing 
Niagara would mean. We only have to look at our sister City of Niagara 
Falls Ontario. The region also has come to the realization of the 
importance of Niagara Falls that extends far beyond its scenic quality. 
We have been named an EPA Brownfield Showcase Community status jointly 
with Buffalo. We appreciate the support of our congressional delegation 
including Senator Schumer, Senator Clinton and Congressman LaFalce in 
our continuing regional efforts.
    The technical advice and focused resources stemming from a the 
proposed resource survey would go a long way to forging a economic and 
stewardship strategy for maximizing the benefits, long ignored, of 
being a unique area of the United States. A Federal National Heritage 
Area Feasibility Study will support the Niagara area in its efforts in 
creating an environmentally and economically sound future for itself. 
The Mayor and City, indeed the entire Niagara Region looks forward to 
forming a collaborative partnership with the State and Federal 
governments. A Resource Study, authorizing Federal participation is a 
positive step in the continued rebirth of our area. This bill 
authorizing continued consideration is crucial for the hopes, dreams 
and ambitions of the people within the Niagara region.

    Senator Schumer. Well, thank you. Well said, Mr. Drake. And 
now, we are going to move to our two witnesses to talk about 
Governors Island. We are honored to have both of them. Claude 
Shostal is the president of the Regional Planning Association, 
which has tremendous respect in the New York area in terms of 
its ability to think ahead of the curve. He is also an 
authority on land use and community development, and he heads 
the Governors Island group.

   STATEMENT OF H. CLAUDE SHOSTAL, PRESIDENT, REGIONAL PLAN 
                   ASSOCIATION, NEW YORK, NY

    Mr. Shostal. Thank you very much, Mr. Chairman. We at 
Regional Plan Association have been working on Governors Island 
for over 5 years, and have been leading the broad based civic 
coalition that supports the return of the island to New York 
and its reuse as a great public resource. Of all the issues in 
the entire tri-state region, this is one of our top two 
priorities.
    As you mentioned, prior to coming to RPA almost 10 years 
ago, I served in senior positions in both State and city 
government in the areas of parks, historic preservation, the 
arts, and urban development. And in between my time in 
government and the not for profit sector, I spent a dozen years 
in the private sector working in real estate development on 
large scale urban and waterfront development projects. All of 
these experiences are directly relevant to the challenges we 
face on Governors Island.
    I would like to thank you for the opportunity to testify 
and for your interest in the future of Governors Island. The 
written testimony I have submitted spells out in greater detail 
the background and the case for Governors Island, but I would 
like to underscore a few fundamental and overarching points, 
some of which you and others have made.
    First, let me emphasize what everyone who has set foot on 
the island knows: it is, as you called it, a special place, a 
magical place; its historic buildings and landscape grounds 
transport one back 150 years in time. And although it is only 
minutes from Wall Street, it is a place of tranquil beauty and 
profoundly important history. With Liberty and Ellis Islands 
within view, it is the obvious and natural compliment to these 
great historic public resources.
    The concept that this national treasure could be auctioned 
off to the highest bidder is beyond inappropriate. It is 
obscene. We should not even be here today talking about special 
legislation to return the island to New York. Let me underscore 
just three of the many reasons why. First, as you and others 
have pointed out, we gave the island to the Federal Government 
in 1800 for national defense. And for almost 200 years, the 
Federal Government used it free of charge for that purpose. So 
historical fairness would require that it be returned at no 
charge.
    Second, when it was finally declared surplus in 1996, only 
a technicality that it was a Coast Guard base at the time, not 
an army or a navy base, as it had been for most of its history, 
exempted it from Federal base closing procedures, which would 
have mandated its return to New York, with compensation for the 
adverse economic impacts of its closure. So legal and economic 
fairness would demand its cost-free return.
    And third, the existing Federal legislation requiring the 
payment of fair market value was the result of closed door, 
cynical political gimmickry to meet a budget balancing mandate 
without regard to the island's history or potential public 
purpose. So even political fairness would dictate its no cost 
return.
    The final point I want to make is that the $330 million 
value placed by an appraisal on the island is pure fiction. The 
appraisal, with which most sophisticated real estate 
professionals would not agree, does not reflect the real world. 
As Senator Clinton pointed out, the kind of development needed 
to generate such value will never happen. An auction by the 
Federal Government will not produce anything close to this kind 
of number, because no knowledgeable purchaser, no prudent 
financing source will put cash on the barrel for the island as 
is.
    Why? Because there is no zoning or environment permitting 
in place for the kind of massive commercial or residential 
development needed to create such value. There is landmark 
designation for half of the island, including the one million 
square feet of historic buildings, and now a national monument 
designation for a portion of it. There is virtually universal 
local, political, and civic agreement on a plan which 
emphasizes, as it should, parks, open space, public access, and 
appropriate reuse of the historic buildings--a program that 
yields self sustaining operation, but a negative residual value 
for the island.
    Any significantly different development proposal will meet 
with a firestorm of opposition, years of litigation, and almost 
certainly, eventual political death. But initiating the auction 
process, which is now scheduled to begin in only 60 days, will 
sentence the island to many tragic years of controversy, 
uncertainty, dispute and decay. We must avoid this unfair and 
irrational outcome. So we appeal for historic fairness, legal 
fairness, economic fairness, and political fairness. We 
therefore urge passage of S. 689. We fully support the 
continuation of the national monument designation, and we 
deeply appreciate the committee's interest in this matter. 
Thank you.
    [The prepared statement of Mr. Shostal follows:]
   Prepared Statement of H. Claude Shostal, President, Regional Plan 
                       Association, New York, NY
    Thank you for this opportunity to testify for your interest in the 
future of Governors Island--one of the great places not just in New 
York, but in the whole United States.
    For more than 75 years Regional Plan Association has been a non-
partisan voice for the wise conservation and development of the Tri-
State New York/New Jersey/Connecticut Metropolitan area. Our Board of 
Directors is composed of senior officers of some of the largest 
corporations, civic associations, and academic institutions in the 31-
county, 13,000 square mile Region. Since 1995, RPA has chaired the 
Governors Island Group, a coalition of 20 civic, environmental, and 
business organizations. In that capacity we have organized a public 
workshop on the future of the Island that attracted more than 250 
local, regional, and national civic leaders and planning experts and 
have undertaken a $150,000 feasibility study of the Island's potential 
for redevelopment. My own background is as a real estate executive. 
Prior to being appointed RPA's President, I worked on several major 
redevelopment efforts, including the Colgate-Palmolive site on the 
Jersey City waterfront and other major urban downtown and waterfront 
projects.
    Governors Island is a special place, hallowed ground that played a 
critical role in the history of the nation. In 1776, American control 
of the Island's fortifications was a factor in General Washington's 
army successful retreat from powerful British forces massed in New York 
Harbor, in effect preserving American independence. In the War of 1812, 
Castle Williams and Fort Jay on Governors Island helped deter a British 
attack on New York, preventing the destruction that befell Washington 
and Baltimore. Confederate prisoners, the Wright Brothers, Blackjack 
Pershing, World War I doughboys, the D-Day invasion plans all had their 
time on the Island, part of a military history punctuated by the 
Reagan-Gorbechev summit that marked the beginning of the end of the 
Cold War.
    This history is readily palpable when one walks in the National 
Historic Landmark District--an unmatched assemblage of nineteenth 
century fortifications, landscaped grounds and federal- and Victorian-
style buildings. Of course, there are other nationally significant 
resources at stake as well. Of particular note are the spectacular 
views of the Statue of Liberty, Ellis Island, the Manhattan skyline, 
and the whole sweep of the inner Harbor and over one million square 
feet of historic building space which could be readily converted to 
public benefit uses.
    RPA and the members of the Governors Island Group civic coalition 
strongly endorse S.689, which would affirm the creation of the 
Governors Island National Monument and convey the remainder of the 
Island to New York State and the Governors Island Redevelopment 
Corporation.
    Last year, President Clinton established the Governors Island 
National Monument on twenty acres of the Island. This designation will 
ensure that Fort Jay and Castle Williams, two significant pieces of 
military architecture, would stand with Ellis Island and the Statue of 
Liberty as a unique place to understand and appreciate American 
history. It would ensure that the National Park Service, the keeper of 
the Nation's history, will tell the remarkable stories associated with 
Island.
    Creation of the National Monument has broad support, on a non-
partisan basis, from all New Yorkers. As one example, I have attached a 
letter sent by the members of our civic coalition in support of the 
Monument to Interior Secretary Norton.
    Unfortunately, the language in the Executive Order left some 
ambiguity as to the relationship between the creation of the Monument 
and the disposition of the rest of the Island. The Department of 
Justice has chosen to interpret that language in a way that directs GSA 
to sell the Monument along with the rest of the Island. As a result, 
Park Service planning for the management of the Monument has been 
derailed. Moreover, based on Justice's opinion, GSA is now proceeding 
to reappraise the entire Island, including the two historic forts, in 
preparation for a potential public auction.
    The sale of a National Monument is, to our understanding, without 
precedent. It would be an ugly action on the part of the Administration 
and a complicit Congress. While the Congressional Research Service has 
cast some doubt on the veracity of Justice's legal opinion, the 
clearest way of firmly establishing the Monument is for Congress to 
pass new legislation. S. 689 would remove any ambiguity about 
Designation. Importantly, it would also enable the Park Service to 
extend its interpretive programming beyond the physical confines of the 
two structures included in the Monument Designation.
    S. 689 would also convey the remainder of the Island to the State 
of New York at no cost. Such action is both fair and has ample 
precedent. New York State formally ceded the Island to the federal 
government in 1800--a transaction that was completed in the 1950s for 
the sum of one dollar. For the past 200 years, the use and care of the 
Island has been the charge of the federal government. Now that the Army 
and Coast Guard no longer require the Island to accomplish their 
missions, the federal government has the obligation to ensure that its 
disposition enables other public interests to be met through the 
Island's reuse.
    It is only by a technicality that the federal government was not 
mandated to assure some responsibility for redeveloping the Island, an 
Army base until 1964, for viable economic development and public 
benefit uses. According to the Coast Guard's Environmental Assessment 
report on the closure and conversations with Coast Guard personnel, 
direct government spending associated with the Island's Coast Guard 
base amounted to about $31.6 million in 1992. The Governors Island base 
had a total employment of approximately 2,300, of which 500 were non-
military support personnel. Under the closure plan, 600 of these 
positions, including 50 non-military personnel, have moved to other 
facilities in the New York area. The remaining 1,250 military and 450
    civilian positions were either cut or transferred to other regions 
of the United States. To help their host communities handle such 
economic impacts, other former military bases around the country have 
been transferred at little or no cost to other federal agencies, local 
or State governments. Some have received millions of dollars for 
capital improvements and operational funds from the National Park 
Service and the Department of Commerce to aid their redevelopment. The 
disposition of Governors Island, by virtue of the 1997 Balanced Budget 
Act is instead currently expected to realize $330 million of revenue.
    Based on our own assessment of the redevelopment potential of the 
Island, as well as that of the Urban Land Institute (the national 
association of professional real estate developers), the Real Estate 
Board of New York, and others, we question whether any private investor 
or public entity would be willing to pay anything close to this figure. 
The physical logistics of redeveloping an Island, uncertain markets for 
normal residential and office uses, and most importantly, what is 
certain to be a lengthy and uncertain public approval process will 
severely limit the value of the Island and the financing of any cash 
purchase.
    Sooner or later, Congress and the Office of Management and Budget 
will have to grapple with the fact that its budget peg is unrealizable, 
and readjust its projections. The responsible course of action would be 
to acknowledge this fiction sooner, so that truly viable reuse 
strategies can move forward.
    As noted in S. 689, the Governor, the Mayor, and a remarkably bi-
partisan array of elected officials have endorsed a concept plan that, 
we believe, is practical in its assessment of the kinds of activities 
that would want to locate on an Island.
    In proposing their plan, the Governor and Mayor have rightly 
concluded that the reuse of Governors Island has marginal value as a 
real estate venture per se, but could offer the City, State, and the 
Nation tremendous benefits if it were transformed into a civic space 
that integrated cultural, recreational, and commercial activities in a 
single setting. The Island's 1.1 million square feet of historic 
buildings are well suited to house such functions. Filling these 
buildings with compatible uses will help ensure that they are protected 
over time. I note that this concept is markedly similar both to that 
proposed by RPA in our own 1998 feasibility study and to the assessment 
made by the Urban Land Institute in 1996.
    Just as important, this plan recognizes the national interest in 
preserving the historic character of the Island and creating 
significant recreational opportunities on the Island. The proposed 
uses, significant public spaces, and the provision of public funds that 
the State and City will have to expend to realize the plan provide a 
strong rationale basis for a no-cost transfer. (It should be noted that 
the General Services Administration has asked the State to provide a 
more detailed reuse plan that is legally binding on the Governors 
Island Redevelopment Corporation. This request is logical and 
reasonable. While a specific plan may be premature at this point, the 
Governors Island Group has proposed a set of redevelopment principles 
such as keeping the Island in public ownership, provision of adequate 
park space and investing all revenue generated by Island leases or 
concessions for the Island's upkeep. These principles would guarantee 
both the public's interest in the Island as well as the federal 
government's interest in a fair deal. They would lead to a more 
realistic appraisal of the Island's value. The complete list is 
attached.)
    In closing, let me emphasize that the proposal before you 
represents an opportunity to safeguard an important piece of American 
history for the future in a way that is fair to both the taxpayers and 
the resource itself. We urge your support.
                         GOVERNORS ISLAND GROUP

                       Proposed State Commitments

                             July 23, 2001

    1. The Island shall remain in public ownership in perpetuity.
    2. Revenue generated on the Island through leases, franchises, or 
concessions shall be used to offset public expenditures or reinvested 
for public purposes on the Island.
    3. The Island's redevelopment shall be in keeping with the proposed 
vision of the Island as a grand civic space for New York and the 
Nation. This includes permanently establishing:

  <bullet> A public esplanade of not less than 50 feet in depth around 
        the perimeter of the Island along the waterfront.
  <bullet> Protected open space in that portion of the Parade Ground 
        surrounding Fort Jay that is not within the National Monument, 
        Nolan Park, Colonels Row Green, and Building 400 South 
        Courtyard.
  <bullet> A public park of not less than 46 acres in that portion of 
        the Island south of Division Road consisting primarily of 
        public park uses.
    4. Permitted Uses on the Island shall include conference centers, 
hotels, hostels, spas, extended stay facilities, and similar 
accommodations; restaurants, catering establishments, and other dining 
facilities; retail facilities, artisan shops and other like arts-
related uses; entertainment facilities; non-profit office uses; 
commercial recreation facilities; and cultural and educational uses. 
The following uses should be specifically prohibited: Residential uses, 
except for compatible adjunct uses; electric generating stations and 
other major utility facilities; and community facilities such as 
hospitals, prisons, and domiciliary care facilities for adults, except 
as transitional facilities.

    5. Redevelopment of the Island will be subject to the following 
restrictions:

  <bullet> No new structure may exceed the height of the cornice of the 
        central portion of the existing Building 400 (approximately 50 
        feet).
  <bullet> Open view corridors to the water shall be maintained along 
        existing and future streets and walkways running to the water.
  <bullet> Within the Historic District, all existing structures that 
        have been identified as historic structures or as contributing 
        to the historic character of the District shall be retained and 
        maintained, consistent with preservation covenants developed by 
        GSA and subject to adaptive reuse for all permitted uses as 
        detailed in the Governors Island Historic District Design & 
        Development Guidelines now being prepared by the GSA.

    6. The State shall invest sufficient capital needed to realize its 
plan, including demolishing inappropriate structures, building the 
public park space, and restoring the bulkheads and other 
infrastructure, and will be responsible for the on-going maintenance of 
the Island and its historic structures.
    7. Maintenance during the initial interim period (anticipated from 
October 1, 2002 to October 1, 2005) shall be in keeping with the 
standards adopted as part of the Programmatic Agreement that governs 
GSA's current maintenance of the Island.

    Senator Schumer. Thank you for some excellent, 
characteristically excellent testimony, Mr. Shostal. Before I 
recognize Ms. Thompson, I just want to recognize the leadership 
of Congress members Nadler, Maloney, and Gilman on this issue. 
And now, we have our final witness.
    Last but certainly not least is Jane Thompson. She is an 
architect. She is principal of Thompson Design Group. She is an 
urbanist who, for over 30 years, has impacted cities on North 
America and around the world, planning successful, well loved 
places such as the Navy Pier in Chicago, Boston's Faneuil Hall 
marketplace, and the Grand Central District in Times Square in 
New York City. Ms. Thompson, your entire statement will be read 
in the record, and you may proceed.

            STATEMENT OF JANE THOMPSON, PRESIDENT, 
               THOMPSON DESIGN GROUP, BOSTON, MA

    Mrs. Thompson. I will try and be summary, but with a 
curtain raiser like all of you, there is almost nothing left to 
say. I might add, for local interest, that my husband and I, 
and our firm, were directly and deeply involved in the 
restoration of Union Station--still are.
    Senator Schumer. With so many accomplishments I could not 
mention all of them.
    Mrs. Thompson. And also the preservation, with the GSA, of 
the old post office. So I have some roots in Washington as 
well. I appreciate your invitation to speak on this subject, 
about which I am not only enthusiastic, but absolutely 
personally passionate. And I do not think there is much I can 
add from a legal point of view. Being an architect hardly 
qualifies me as a politician or a lawyer. So I am just going to 
plunge in and tell it from a personal perspective.
    Because of RPA, I got interested in the island in 1995, 
when they held the first large workshop in lower Manhattan 
about the future of the island, anticipating, but not quite, 
all of the problems in the future. It was a major event--
community boards, preservation experts, urban designers, and so 
on. And after the workshop, which came out with ideas that are 
more refined and representative than these drawings which were 
the outcome of work in my office, in the next 2 years with RPA, 
trying to see how we could predict and test the feasibility 
that this place could be saved without losing its historic 
quality.
    I wish you could all get on the boat and go on that 5-
minute ride over to the island and really see this, because 
there is no substitute. This is a spectacular and unusual 
little piece of New York, but it really is New York. It is just 
by some geological accident some water got in the way and, as a 
result, it is this almost bucolic separation of place, which 
gives you a totally transcendental feeling about the city when 
you get there.
    What we did in the workshop and the subsequent work was to 
test the viability and sustainability of this historic place of 
public benefit so that it could be kept without large-scale 
development, or commercialization, or privatization, or loss of 
its historical quality, and also be self-sustaining. We had 
this as a very specific goal, and I think we demonstrated the 
way this mix that Senator Moynihan mentioned could be done.
    It was all in our final report, and I wish I could point to 
things on the drawings, but I will plunge ahead. We tried a lot 
of alternatives, and we also tried and found things that would 
not work. Underscoring what Claude has said about residential 
development, it is not only all of those reasons of financial 
unfeasibility, it is also its requirements of infrastructure it 
would have to become for the kind of development that they 
would envision, an entire community with all the amenities and 
services that would be required in any section of New York. And 
this is simply not doable on that island.
    A few of the things I would say about the island that make 
it unique--it is an island that nobody knows, and it is 
imperative that it be part of the trio of international 
attractions that occur in the harbor. It is right next door--
and you can see a little red dot there--how close it is to the 
shores of Brooklyn. It is a resource for those who live around 
the island. It is a resource not only for visitors but also for 
residents. Downtown Manhattan desperately needs this place to 
play that the Senator has referred to. This open space is a 
place to have water, sky, and air.
    It is a place, as we envisioned it, as a place for all 
people. The public benefit is open to all. And what we 
envisioned is a kind of new urban park. Urban parks have been 
heard of, but I think this is more park, perhaps, than many of 
them. And active and passive things can happen here, 
incorporating some low-key commercial amenities, which, in the 
whole, will be enjoyed by millions of visitors annually. But 
our approach is the essence of preservation, because it 
preserves the unique, bucolic quality that is there today.
    It is a green and leafy village. And if you go there, you 
will want to walk around, and stroll and explore, and gaze at 
the water as the boats go by. It invites diversity, and our 
model, as we are showing it, had a really interesting and 
balanced mix of uses, from sports and culture, to health, 
recreation, vacationing, social opportunities, holiday 
programs, and festivities--all the things you would do in a 
city, but transposed to a new environment. And this makes it 
usable in all seasons of the year.
    The military monuments are very important, but they are 
really not separable from the architecture. The place as a 
whole, the footprints of history are all over this island, and 
they deserve to be held together as a total monument, and not 
seen as a piece of real estate with a monument in it. 
Residential buildings, which are fascinating in themselves, can 
be used for lodging, hotels, hostels, conference centers, and 
the other buildings there adapted to similar uses, which will 
help support the overall.
    But I think finally, I just want to say that this is a 
place apart, and it is a transformative place. We kept using 
this word in the workshops. It gives you a different 
perspective. It gives you a new way of looking at the world and 
reflecting on issues in new dimensions. It is really a 
priceless urban retreat, and we call it a third Central Park, 
at the heart of the harbor. And I think when you go there, it 
changes your evaluation of the joys of living even in a crowded 
city, and a beautiful city at that.
    I think we can reclaim it. We have a window in history, 
which everybody has pronounced about. Revitalizing the island, 
as a whole civic place, is in the national interest, and it is 
of national significance. And I hope that you and all of us 
will prevail on those to see this clearly.
    [The prepared statement of Mrs. Thompson follows:]
Prepared Statement of Jane Thompson, President, Thompson Design Group, 
                               Boston, MA
    I appreciate this opportunity to speak on the future of one of the 
most special places I know in America. My name is Jane Thompson, and I 
am one of the beneficiaries of RPA's interest in the Island, having 
been invited to participate in the very first large public Ideas 
Workshop about the future of the island, in 1995, in Manhattan. The 
Workshop brought together a coalition of 20 civic and business groups 
and eleven urban designers, real estate and park experts, for three 
days of talking and planning. I got familiar with the island and its 
beauties, and stayed on the continuing team as the urban planner, as we 
launched a 3-year effort to imagine, study, predict, and test the uses 
and site design that would prove feasible: that is, to preserve the 
island with minimal changes to its historic fabric, while introducing a 
sympathetic mix of new uses that would render it economically self-
sustaining--yes, it can be--after initial investment in restoration by 
both public and private sources.
    My long professional life in architecture and planning has centered 
on revitalization of once-vibrant run-down yet useful buildings and 
places. Locally, they include the rehabilitation of the Old Post Office 
with the GSA (early 80's), then the transformation of a ``white 
elephant'' Union Station into the richly historic multi-modal culinary 
center that you have today (opened 1988). Earlier, some of our save-
the-city efforts included Baltimore Harborplace, and Boston's Faneuil 
Hall Marketplace, both with The Rouse Company. As I think about it now, 
there are interesting parallels. Each of those projects began with a 
discarded and obsolete place or artifact, each sunk to such low regard 
that cities and agencies could not justify an investment in reclaiming 
its actual historic value. Each place was rediscovered, defended, and 
eventually revitalized by public-private endeavor, with tremendous 
reward in terms of intrinsic and cultural values as well as 
immeasurable spin-off benefit to local economies.
    And so it can be on Governor's Island and in the great harbor 
around it. My testimony will attempt to articulate reasons WHY this 
island is a unique place, an heirloom in public trust that should not 
for any reason be transferred to private developers and sliced into 
piecemeal projects for profit. These are issues I feel passionately 
about. For me, this is not a ``project,'' it is a cause with great 
meaning, as it is for a great many people.
    It goes without saying that governments in the USA are the 
guardians of public trust and heritage. Agencies at all levels are 
expected to guard our history, not to trade it for quick revenue--even 
in moments of financial need. If this were not a given of our heritage, 
New York City might solve any annual deficit by auctioning off the 
northern 100 acres of Central Park. Or the federal government might 
bridge the Social Security gap by selling a hotel site on the Mall, 
just steps from the Capitol(!) while the Treasury raises ready money by 
leveraging luxury home sites on spare land around the Washington 
Monument.
    Governors Island, with its existing (if not yet complete) 
designation as a National Monument, is a place of inestimable historic 
value to the public, now and for future generations. It is not just a 
war memorial. Its unique value springs precisely from its wholeness and 
continuity--a mixture of land and buildings, installations and 
outlooks, trees and fields, an environment that has evolved over 
centuries and carved its legends into the rocks and soil.
    The original site, intact in its entirety, tells its story through 
both the military fortifications and the surrounding domestic 
architecture that gave quarter to its forces and leaders and their 
families, in a continuum that reaches from the American Revolution to 
the age of space travel, and makes them all seem real and relevant.
    The elegant federal-style residences (Queen Anne) of Governors, 
Admirals, and Commanders stand beside Victorian homes along leafy 
paths; imposing officer barracks (McKim Mead and White) lend definition 
to the center of community space. The setting speaks eloquently of the 
human lives through its landscaping, residential neighborhoods shaded 
by age-old trees, buildings sited for views and pedestrian vistas 
cleared toward surrounding city and water. It is not just the confined 
battlements that have meaning; the footprints of two centuries of 
history are all over this old island. It is a magnificent public space. 
Disney could not improve it through costly imitation. It is resolutely 
real, and any school child immediately feels the difference.
    We should think of Governor's Island as an American family album 
projected in three dimensions--lovingly preserved sites and foundations 
built upon generation after generation. Today we still may visit the 
visible places where memorable things happened--not only in arenas of 
battle preparation, parades, protection, and imprisonment, but in 
family homesteads, front yards, schools, churches, favorite walks, and 
picnic spots. And among all these, there is the ``walk in the woods'' 
setting for the great diplomatic moments between Reagan and Gorbachev.
    But--beautiful as it is, the Island will never command the big 
money on which its imminent sale is predicated. In fact, (it is worth 
repeating) these great historic qualities diminish the value that 
profit-oriented real estate speculators will look for here. Not only 
are there historic constraints and unbuildable land, but there is not 
yet the foundation of certainty that required permits and approvals for 
development of any kind can be procured. As U.S. government property 
since its transfer by the State of New York in 1800, the island has 
never had the precedent of municipal code regulation, never passed the 
hurdle of being zoned for uses consistent with New York City law. Such 
certainty is the bedrock of financing valuation and commitment in the 
risk-averse real estate industry. Without it, the property has the full 
value of a pig in a poke--until that long regulatory process is 
actually accomplished.
    Governor's Island is special because it is a PLACE more varied yet 
integrated and homogenous than most places built under today's 
development standards. The whole historic place--the monumental site of 
40 acres--has the national importance of a COMPLETE NATIONAL MONUMENT 
in a class with Fort Ticonderoga, Fort Sumter, and the Presidio of San 
Francisco. And in historic dimensions, it is greater than any of these. 
A true public monument is not a few salvaged walls. It is a an 
aggregation of meaning over decades and centuries.
    Has governmental trust brought our heritage to this cheap end--a 
quick sale to cover budget deficits? Should we trade 200 years of 
quality and tradition for--what? A few million dollars dropped into the 
black hole of the budget? What do we suppose Mt. Vernon will fetch at 
auction when its time comes?
    The projected financial gain from a final Federal sale of this 
land, if transformed into a significant Federal gift that returns the 
land to the State of New York and to the people of the United States, 
is a gift that will keep on giving. It will yield high returns for days 
and years, echoing the pleasure of enlightened and grateful citizens 
for generations to come.
                    strategy for achieving the plan
    I want to contribute these further details to describe the precise 
potentials that the Island holds for New Yorkers and the visiting 
public alike, and for the real possibility that it can become a self-
sustaining place without drain on the city or state.
    We have, in this small window of history, the chance to save and 
reclaim Governor's Island so that present and future generations may 
rediscover the city of New York and all it has meant to local and 
national history. And so that visiting families and tourists may 
understand this long-invisible piece of American history as part of 
their harbor visits. Thus it becomes the Triple Treasure tour that 
belongs at the tri-state crossroads.
    Shortly, this national treasure may be permanently excised from the 
archives of national treasures before its treasury has ever been 
display to or witnessed by the American people. Revitalizing Governor's 
Island as a civic place is in the national interest and of national 
significance.
    These are the things that can save it and make it self-sustaining, 
as well as historically significant into the infinite future.
1. Parameters of Possibility: The Plan and the Prospect
    In its feasibility planning study of 1996-1999, Regional Plan 
Association tested the viability and sustainability of an Historic 
Place of Public Benefit that could also be economically self-sufficient 
after initial public and private investment in restoration and 
adaptation. We established that it could meet those goals without 
large-scale development commercialization, privatization, or loss of 
any of the historic lands, trees, and architecture that make the Island 
a delightful and extraordinary ``Place.''
    The RPA study envisions the island as a new kind urban park--a 
diverse garden-like space of active and passive activity, incorporating 
recreational and low-key commercial uses, which opens the whole island 
to use and enjoyment of millions of residents and visitors annually. 
This is the essence of preservation: this preserves the unique park-
like environment of the Island as it is today. It has a green and shady 
village-like character with neighborhood clusters. With its continuous 
water edge and compelling ramparts and outlooks toward city, harbor, 
and sea. Expendable as a military community, it can incorporate the 
battlements and become a great civic place. The plan assumes 
preservation of all structures except a few post-war additions on the 
original site, and clearance of non-conforming post-war buildings south 
of Division Road, reshaping the filled land into a Great Public Park of 
132 acres.
    The feasibility study demonstrated that a sensitive and sound mix 
of facilities can be oriented to various constituencies--from the 
educational and recreational needs of local citizens to the destination 
interests of travelers and tourists. We found that an appealing 
memorable environment can be conserved, within a distinguished larger 
locale in which some commercial amenities and facilities support the 
park environment that is free to all who visit.
    Most of the historic residential buildings--barracks, officer 
quarters, apartments, homes--can be directly reused as lodgings, 
hostels and conference facilities. Offices, meeting rooms, and schools, 
are readily adapted for other related reuse, with minimum exterior 
change. There are locations for restaurants, cafes, picnic areas, 
artisan and museum shops, interpretive centers, catering and 
entertainment areas, including an arena for outdoor performances.
    Reached by a short commuter ferry ride from the tip of Manhattan, 
this is a pedestrian island--car free, open to joggers and bikers and 
amblers, serviced by small runabouts (mini trucks) that don't threaten 
mothers with strollers while offering taxi service to seniors with 
tired feet. The relation of buildings and open spaces, of extended stay 
facilities and areas for lunch-hour breaks and after-school play, can 
be sited for convenience and privacy. Well-planned facilities within a 
fresh verdant landscape will attract international tourism, city 
visitors, and continuous local use--the kind of broad public benefit 
that offers all levels of enjoyment.
2. Key Concepts for Maximizing Public Benefit
            It Is the Island Nobody Knows
    Governor's Island, though always visible from the tip of Manhattan, 
has been off-limits, a place of mystery, a missing link in the circle 
of historic harbor attractions. By adding it to Ellis Island and The 
Statue of Liberty as harbor destinations, we allow public discovery of 
the oldest and most venerable of the trio at the heart of the tri-state 
crossroads. Governor's Island is rich with places of memorable action, 
life, and people, where visitors may find new understanding of New 
York's role in U.S. history.
            It Is the Island Next Door
    The Island's 172 acres are just one-half mile offshore. It takes 7 
minutes from Brooklyn and/or Battery Park on a comfortable ferry. Once 
you are there, the island's 2-mile water-edge affords a front row seat 
on city and sea. It takes in spectacular views of skylines, rivers, and 
the whole harbor that was once guarded by its forts and forces, 
protecting the city from invasion wars since 1776. A catalyst for 
public discovery of all the harbor resources, an accessible Island will 
add a whole new chapter to the visible story of New World settlement, 
protection, immigration, and expansion.
            It Is a Place to Walk Into Our Past
    A National Landmark District reveals the story of three historic 
fortifications that protected the city over two centuries of military 
action and international diplomacy. There are ramparts to climb and 
dungeons to explore, gun emplacements and parade grounds to view, 
residences of Admirals, Generals, Commanders, Governors, and military 
personnel--over 1 million square feet of genuine fortifications and 
admirable architecture, all to be restored and used in ways that allow 
public access. These real places, in an invigorating outdoor setting of 
fresh air, water, grass, sky and skyline, create a gripping theater of 
New York history.
            It Invites Diversity of Uses and Users
    Skillful reuse of the historic core and the manmade southern 
acreage as parkland, offers a balanced mix of new uses: health and 
recreation facilities, commercial amenity, vacationing and social 
possibilities, sports and cultural activity, holiday programs and 
regular festivals. Diversity of program can bring together people of 
all ages and varied personal interests to find enjoyment in all seasons 
of the year.
            It Is a Place Apart--A Transformative Place
    Each visit to this near but separate place offers a refreshing 
change of pace and perspective--new ways of looking at work, leisure, 
city, sky, and nature, allowing reflection issues and ideas of all 
dimensions. Its inherent character is that of a priceless refuge, a 
third Central Park at the heart of the harbor. It stirs inner vision, 
and refreshes one's valuation of the joys of life in an intense crowded 
city.
            It Is an Island to Realize Through Imaginative Planning
    If conveyed to the State of New York under S. 689 this unique 
environment and open space may be sensitively transformed for diverse 
recreational and commercial opportunities that can make the whole park 
economically self-sufficient. Viable uses planned for old and new 
buildings as well as open land can yield revenues to preserve the 
historic environment in a responsible manner, with a goal of economic 
sustainability. It is potentially profitable as a ``non profit'' public 
enterprise.
    We must evaluate the profits, beyond dollars, that are contained in 
the future of this place.
    To bear out my statement about profitability, I pose the example of 
the restoration of Chicago's Navy Pier, of which I was chief planner 
and designer of its balanced public and private uses. The economic 
goal, after initial capital investment of state general funds, was 
financial self-sufficiency; there would be no contribution or future 
tax liability by the city or state to support the facility, programmed 
for family leisure, recreation, and culture. Today, with a balance of 
free public open and water-edge space and historic structures, public 
fee-paying attractions like museums, exhibits, theater, and related 
parking, and privately financed commercial amenities of restaurants and 
food concessions, Navy Pier attracts 9 million visitors annually and 
realizes far more revenue than is required for operation and 
maintenance. Many people visit entirely free, yet it is making a profit 
beyond all projections.

    Senator Schumer. Well, thank you very much, Ms. Thompson, 
once again, for great testimony. I have a whole bunch of 
questions. I just have a couple on Niagara Falls, and then 
maybe we can let our Niagara Falls witnesses go, and then we 
will talk about Governors Island. First, I just wanted to ask--
and I want to thank you, Mr. Galvin, not only you, but Mr. 
Pepper, I know, who is seated behind you, for your leadership 
in helping us come to this point. Both of you have really been 
behind us, and we appreciate it.
    And as you know, we have already made provision to have 
this money put into the Senate bill. I believe it will be in 
the House bill, so you do not have to worry about it coming out 
of your other 42 or whatever it was studies that you have to 
do. But what about the idea of shortening it? Three years is an 
awfully long time. We are really moving. We have our consensus. 
The Governor is putting in, as Commissioner Castro mentioned, 
quite a bit of money. Could we speed this up?
    Mr. Galvin. Well, it is not impossible, but I would caution 
that, in my experience with these studies, you spend more than 
half your time talking to the public here. This is not a 
technical planning problem, it is really soliciting public 
opinion about, what do you want to save around here, how do you 
link it together, who's going to be interested; who's going to 
support it, who's going to oppose it, how many people are going 
to be indifferent? So it is very much a consensus building 
process. It is also a process that will yield things on the 
way.
    So I would not say we are stuck with three years, but I 
would caution that it is very much process oriented, as opposed 
to digging out technical facts and coming up with some grand 
master plan.
    Senator Schumer. No, I agree. The one thing I would say is 
we--there has been so much discussion in Niagara Falls, and I 
have been spending about a year bringing people together. That 
may help speed it up a little bit.
    Mr. Galvin. Well, that might help.
    Senator Schumer. Okay, great. And I do not have any other 
questions on Niagara Falls, so I do not think it makes any 
sense to keep Mr. Drake, Commissioner Castro here. I do have 
other questions, many on Governors Island, even including 
something for you, Mr. Galvin. So I would thank both witnesses 
for coming and helping us take another step on the road to 
progress in Niagara Falls.
    First, I did want to clarify, in terms of Governors Island, 
before I get to Mr. Moravec, where I have a whole lot of 
questions, something you said, Mr. Galvin, on behalf of the 
Park Service. You said you did support the title 5 part of the 
bill, the idea that this is Governors Island. You had mentioned 
in your testimony the idea that this language, which I should 
get in front of me as well, that deals with the notwithstanding 
any other government language, should be changed so that it can 
be clear that a national monument stays a national monument.
    Mr. Galvin. Right, that is section 4 of the bill.
    Senator Schumer. That is section 4, I apologize.
    Mr. Galvin. And we do support that, absolutely.
    Senator Schumer. My only question is, is that the Park 
Service or is that the administration?
    Mr. Galvin. The administration.
    Senator Schumer. Including the Justice Department.
    Mr. Galvin. It is the cleared position.
    Senator Schumer. Great. Well, that is very good progress 
and excellent news. That gets us part of the way there. Good. 
Thank you for that. Just to inform our other witnesses and 
others, one of the objections, not the only, but one of the 
problems we had was that it seems, by the Justice Department, 
that when President Clinton made part of the island a national 
monument, that that would not stand, and our legislation does 
make it stand. There is some arcane language there that said, 
notwithstanding any other legislation. The support of the 
administration to do that is terrific.
    Okay, now let's get to the nub of the matter, which 
involves Mr. Moravec above all. Here are my questions for you, 
sir, because we can not really determine where the 
administration is. As I told you, we had some sympathetic 
comments from the President on his trip to New York, where we 
all sort of ganged up on him and asked him, but no firm 
position. So first, does the administration support this 
legislation that would provide a clean and clear path to 
protecting the national monuments and transferring the island 
to New York State for the benefit of future generations of 
Americans? And if not, why not?
    Mr. Moravec. I must confess, I am somewhat surprised by Mr. 
Galvin's testimony.
    Senator Schumer. It is a pleasant surprise as far as I am 
concerned.
    Mr. Moravec. Unless S. 689 is enacted into law--which will 
then clarify these matters--GSA is proceeding on the assumption 
that the Balanced Budget Act of 1997 rules. And that would 
require the sale of all right title and interest in the island.
    Mr. Galvin. Well, let me read it for the record.
    Senator Schumer. Great, that would be great.
    Mr. Galvin. ``The Department supports section 4 of S. 689, 
regarding''----
    Senator Schumer. Now, mind you, that is just section 4, not 
section 5.
    Mr. Galvin. Just section 4--``regarding the conveyance of a 
portion of Governors Island to the National Park Service, but 
defers to the General Services Administration's comments on 
section 5, regarding the conveyance of the majority of 
Governors Island to the State of New York.
    Senator Schumer. Right, but if this did prevail to be the 
administration's opinion, that would mean the monument section 
of the island--and it passed--would have to pass our law and 
signed by the President, that the monument part of the island 
would stay a monument. Am I correct about that?
    Mr. Galvin. Right.
    Senator Schumer. And what percentage of the island is that? 
Does Ms. Thompson or Mr. Shostal know?
    Mr. Shostal. It is 20 acres out of 172.
    Senator Schumer. So it is a nice portion.
    Mr. Shostal. Ten percent.
    Senator Schumer. Right, a little more than that. Okay, let 
me then ask again, let's just let you guys settle the section 4 
issue; I am going to presume that you are okay on that for the 
moment. But what is the administration's position on the entire 
bill, and particularly section 5? And if there is no position, 
why isn't there?
    Mr. Moravec. The position that the GSA is taking is that 
the Balanced Budget Act of 1997 rules and that requires and 
directs GSA to sell Governors Island not before fiscal year 
2002, at fair market value. It also requires GSA to offer to 
the city and State of New York a right of first offer to 
purchase----
    Senator Schumer. We are aware of the law. So is it that the 
administration is opposing the bill that I have put in, or they 
do not have a position, or----
    Mr. Moravec. I would say that the administration is neutral 
on the bill, to the extent that we will be guided by whatever 
the----
    Senator Schumer. No, I know what existing law is: I am 
asking, is it an affirmative neutral or is it just that we have 
not taken a position yet?
    Mr. Moravec. We have not taken a position yet.
    Senator Schumer. Okay, I would ask----
    Mr. Moravec. That is to say that GSA has not taken a 
position. I can not presume to speak for the entire 
administration. I am speaking for GSA.
    Senator Schumer. Understood, Mr. Moravec. I would ask that 
you contact, however you do it, up to the chain in the White 
House and try to get us a position, because I know the record 
is going to remain open for a period of time, and get us a 
position on that. Would that be possible?
    Mr. Moravec. Sure.
    Senator Schumer. Thanks. Okay, the next question: when we 
discuss the future of Governors Island, two figures continually 
arise regarding its value: the $500 million that is in the 
Balanced Budget Act, and $330 million. The second comes from 
the GSA appraisal of the island, utilizing current New York 
City zoning. Now, I know no one in the New York real estate 
community--and this is a group of guys, almost all guys, maybe 
there is a gal or two, who would love to get their hands on any 
kind of property they could to develop, that they are going for 
much less choice than Governors Island. But no one thinks it 
could fetch anything close to those figures. So do you believe 
either figure, $500 million or $330 million, could actually be 
realized from the sale of the island?
    Mr. Moravec. I can not presume to make such a 
pronouncement. I can only tell you that it is a completely 
unique place; it is of incalculable value, as has been 
testified to here today. We are proposing to let the 
marketplace tell us what the value is of Governors Island.
    Mr. Schumer. Now, Ms. Thompson and Mr. Shostal, you are 
both very much involved in this. Do you believe it could come 
close to even the $330 million figure?
    Mr. Shostal. I would like to address that. Here is the 
quandary. I am convinced that if the auction procedure would 
say, you must bring a check and accept the island as is on the 
day you write the check, somebody may come up with $5, or $10, 
or $20 million. You know, Bill Gates or somebody who would like 
to live there that is willing to write a check for $10 or $20 
million.
    Senator Schumer. Not for $330 million.
    Mr. Shostal. No, what I am most frightened by is this 
process where somebody bids $350 million, but the bid goes as 
follows. I will write you a check at $1 million on the day you 
give it to me. I would like 6 months to negotiate a development 
agreement; at the end of the successful development agreement, 
I will write you a check for $10 or $20 million. And then, upon 
appropriate rezoning, reuse, environmental permitting, 5 years 
or 8 years later, I will write you the remainder, because then 
I will have the permission to then create the buildings that 
will create the value. And that will lead to years of 
negotiation dispute with the developer in place who has, then, 
vested rights. It is that kind of a process that I find so 
tragically frightening.
    Senator Schumer. As is under----
    Mr. Shostal. As is cash on the barrel.
    Senator Schumer. But what is motivating some of my 
colleagues against this is that they think they could get $330 
million cash on the barrelhead. Could they?
    Mr. Shostal. It is ridiculous.
    Senator Schumer. Do you agree, Ms. Thompson?
    Ms. Thompson. I will just add that in the course of our 
study, while we were doing it, the city of New York--because 
this had not been clarified--was busy taking the biggest 
developers they could find out to that island. And we have this 
in the record somewhere. We know that Donald Trump was the 
first one taken. And he took one look at it and said, ``Not for 
my clientele. Nobody is going to get on a ferry and come out 
here to have either a casino or an expensive hotel.''
    Other large residential developers were all brought by the 
City Planning Commission, and they all walked away from it for 
exactly these reasons. There was nothing to assure them they 
could ever do what they would be paying for.
    Senator Schumer. And, of course, the large figure would 
depend on the city doing what the Federal Government wanted. 
And the city right now, I think there is pretty much consensus 
saying, we do not want the Federal Government to auction this 
thing off. And therefore, it is catch-22. They are stuck. So 
Mr. Moravec, this sounds to be a ludicrous figure.
    Mr. Moravec. I am sorry to be striking a discordant note, 
but once again, this is not a matter of my opinion as to what 
the buildings and land of Governors Island are worth: it is for 
the market to decide.
    Senator Schumer. No, understood, but the Budget Committee 
seems to feel it could bring in $500 million. And there was 
this $330 million appraisal by GSA, and to those of us who live 
in New York, it is outlandish when the top developers in New 
York say it is not close. I mean, we are not going to sell the 
Brooklyn Bridge again. You know, it would be an inverse: we 
would get too much money rather than too little. But it is not 
going to happen in this very wise world.
    Mr. Moravec. Mr. Chairman, having grown up in the New York 
area and having a special affection for New York, living on 
Staten Island and passing by Governors Island a thousand times 
on the New York Ferry, on the way to visit my father, who 
worked at 25 Broadway. I want to establish that credential. I 
have also spent about 30 years in the commercial real estate 
business prior to becoming Public Buildings commissioner. And I 
can tell you that I have more than once been surprised by what 
price a truly unique property will fetch.
    Senator Schumer. Okay, let me ask you this: has the GSA 
been approached with serious solicitations from private 
developers?
    Mr. Moravec. It has not.
    Senator Schumer. Why not?
    Mr. Moravec. Because we have not encouraged such 
discussions. We have had informal inquiries, and we have 
actually met with development interests, but have not had what 
I would call a substantial or substantive discussion with 
regard to----
    Senator Schumer. So let me ask you this: does the $330 
million appraisal figure take into account the fact that it 
costs $10 million annually just to protect the island's 
seawalls and stuff like that?
    Mr. Moravec. My understanding is that the appraisal is 
based on the highest and best use of the island under current 
zoning.
    Senator Schumer. Okay now, we may make a little news here. 
I understand that a letter dated July 23, GSA has rejected the 
plan submitted by the State. This is the joint, State, city--I 
know, it came as a surprise to me when I found out too, Mr. 
Shostal. Can you tell me why that is?
    Mr. Moravec. I would not use the word rejected. I would say 
that we----
    Senator Schumer. You did not accept it.
    Mr. Moravec. We did not accept it as a basis for a 
reappraisal of the island. And I am the person who sent that 
letter, so I know what was in it. We deemed that the Hamilton, 
Rabinovitz plan of June 8 was insufficient. It is a draft plan; 
it presumes that a master plan will follow; it is tentative in 
its tone; it uses words like may, could, envision. The 
financial analysis is loose and questionable. I could not 
regard it as a plan sufficient in detail to be able to serve as 
a basis for a reappraisal. The plan actually says, at one 
point, that land use and allocation of acreage will be subject 
to further refinement. That, as far as GSA is concerned, is not 
the sufficient data for us to be able to commission a 
reappraisal. In addition to which----
    Senator Schumer. Yeah, let me just ask you another 
question; you can answer it all. You call for the need--and we 
just received this letter or became aware of it last night--you 
point to the need for binding restrictions on any future reuse 
plan for Governors Island. What, in GSA's estimation, would 
constitute binding restrictions? Would covenants in the deed 
suffice? Do we need to pass a law? We need to know exactly what 
you mean, because time is running out.
    Mr. Moravec. My intention, or the intention of GSA, at this 
point, is that an act of the legislature would be required to 
make this a binding plan.
    Senator Schumer. The act of the State legislatures. Well, 
they are not even meeting right now. You are putting us in a 
bit of a catch-22 with that.
    Mr. Moravec. Well, I would say that in fairness to the 
Federal Government the disposition of this island has been a 
matter of interest for some time now.
    Senator Schumer. Yeah, but we did not know until a week ago 
that the plan was not any good.
    Mr. Moravec. Well, I would say that the letter from my 
predecessor, Mr. Peck, in January, gave notice to the State and 
city of New York that a plan sufficient in detail to justify a 
reappraisal and perhaps a lowering of the fair market value to 
defend a fair market value lower than $330 million that would 
be required, and that the plan would need to be legally 
sufficient and binding upon the State and any future 
transferees of the island. That plan has not, in our opinion, 
been produced.
    Senator Schumer. No, I understand that. And by the way, 
does this come as a surprise to you, either Mr. Shostal or Ms. 
Thompson?
    Mr. Shostal. We became aware about a week ago of the 
letter. We were disappointed, but I can not say it was a 
surprise. What we were surprised is that the GSA and the State 
had been negotiating and talking to each other for a year since 
that January letter, and somehow the State had never heard that 
a verbal plan was insufficient and that State legislation was 
the only way. In fact, at the advisory committee meetings, the 
State representatives came and said, we are confident that we 
can do it through negotiation and through deed restrictions. So 
there was, at a minimum, a breakdown in communication between 
GSA and the State.
    Senator Schumer. It was my view that deed restrictions 
would work as well, and now, to say legislation is a pretty big 
hurdle. So I would ask you Mr. Moravec, would GSA consider 
giving us more time now to deal with this new condition that 
you have added?
    Mr. Moravec. First, Mr. Chairman, I would disagree. This is 
not a new condition; this was a condition that was spelled out 
in correspondence with the State as early as the summer of 
2000.
    Senator Schumer. Legislation was mentioned as needing--but 
we understood that there had to be restrictions. No one 
understood that those restrictions had to be legislative.
    Mr. Moravec. Legally binding upon the----
    Senator Schumer. Well, is not a deed restriction legally 
binding?
    Mr. Moravec. It is also legally binding, but in 
Administrator Barram's letter in the summer of 2000, he asked 
that it be legally binding and that in addition there be deed 
restrictions placed upon the property. I mean, it is quite 
clearly spelled out in the correspondence of summer of 2000 
from then Administrator Barram to the State of New York, and 
reiterated in the letter in January from my predecessor to the 
State of New York, and now finally confirmed by my letter of 
July 23 to the Empire State Development Corporation. So I would 
take exception to the contention that the GSA has not been 
clear as to what the requirements were.
    Senator Schumer. I will tell you this: I think it would 
take most in New York, whether it be the Governor and the 
mayor--and, as you know, it took a long time to get them 
together to come to an agreement--the people on the committee 
and everybody else that legislation would be required. But I 
renew my request and give you time to answer in the record, 
that you give us some time to deal with this. And that leads to 
my next question: do you have a timeline? Do you believe you 
have to sell the island in 2002, or would the prospect of a 
greater sale price cause GSA to hold off for a future year?
    Mr. Moravec. We are proceeding on the premise that we will 
sell the island in fiscal year 2002.
    Senator Schumer. Okay then, I would make a request of you 
that, given this new information about the binding restriction 
needing legislation, that we delay that some, at the very 
minimum. Now we may get our bill passed, and that will settle 
the problem.
    Mr. Moravec. And so it will, and so it will.
    Senator Schumer. Yeah, and maybe you can get the 
administration to support it. Let me ask you one final 
question, and then I think we are finished. Do you believe that 
it is fair that former military bases around the country are 
receiving financial assistance as they make the transition from 
Federal to local ownership, while Governors Island is about to 
be auctioned off? That is because of the anomaly. If this were 
an army, air force, navy base, it would be different.
    Mr. Moravec. I may have my own opinion to the fairness, but 
in my official capacity, my answer is that we are guided by the 
Balanced Budget Act of 1997, and we will abide by that as the 
guiding law.
    Senator Schumer. Okay well, I want to thank all the 
witnesses. I think this was an elucidating hearing. It is going 
to move us forward in many ways; it brought out some new 
information. And I thank each one of you for being here and for 
the work that you have done. I want to remind everyone that the 
record will remain open for a week for you to submit any 
additional comments. And maybe, Mr. Moravec, I do not know if a 
government can move that quickly, you would do that. I want to 
thank everyone again. The hearing is now adjourned.
    [Whereupon, at 4:39 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

  Statement of Bradford J. Race, Secretary and Chief of Staff to the 
Governor, The Honorable George E. Pataki, Governor of the State of New 
                                  York
    I would like to begin by thanking Senator Moynihan for his 
leadership on this issue and testifying on behalf of the State of New 
York. His tireless dedication to preserving this historic landmark is 
the reason we are here today. I would also like to thank Mayor Giuliani 
for his commitment to Governors Island and for everything he has done 
to create such a productive partnership between the State and the City. 
The Governor would also like to thank the local elected officials, 
civic organizations and community groups who support the State and 
City's Preservation Plan and the Governors Island Preservation Act of 
2001. The State will continue to work cooperatively with all interested 
groups so together we can ensure the protection of this magnificent 
resource. Finally, my thanks to the General Services Administration and 
the National Park Service for their valuable input into this 
legislation.
    The story of Governors Island is a unique one. Like the Statue of 
Liberty and Ellis Island, Governors Island has helped define our 
nation. Every year, more than five million people come from all over 
the world to experience expressions of our civic values and history at 
Liberty and Ellis Islands. Through enactment of this legislation, 
Governors Island will soon join these national treasures and give 
visitors yet another opportunity to celebrate the unique history of our 
struggle for freedom and independence.
    In 1637, Governors Island was purchased from Native Americans as an 
estate for Dutch Governors of New Netherlands, later to become part of 
New York City. The Island was eventually recognized for its strategic 
value and, at the request of the federal government, the State of New 
York ceded control of Governors Island for nominal consideration in 
1800 to provide for the defense of the United States.
    Governors Island has been occupied and operated as a military 
facility for more than 200 years and has played a pivotal role in every 
major military conflict from the American Revolution through World War 
II. Governors Island over the years has served as a backdrop for many 
important events, including the relighting of the Statue of Liberty in 
1986. It was also the site of the final summit meeting between 
President Reagan and Soviet Leader Mikhail Gorbachev in 1988 and United 
Nations-sponsored talks to restore democratic rule to Haiti in 1993.
    We have before us a unique opportunity to preserve this remarkable 
history. Governor Pataki and Mayor Giuliani have agreed on a 
Preservation Plan for Governors Island. This Preservation Plan will 
transform Governors Island into a major civic, recreational, cultural, 
and educational asset for all New Yorkers and the millions of Americans 
who visit New York Harbor each year. The Preservation Plan reflects a 
broad consensus about the future use of the Island and is supported by 
local civic and community groups and local elected officials.
    The Preservation Plan preserves the two nationally historically 
significant 18th and 19th Century military fortifications, Fort Jay and 
Castle William, on the northern portion of the Island for use by the 
National Park Service. The Governor is pleased that the National Park 
Service has agreed to join with the State and the City in the 
preservation and protection of these historic structures and supports 
the Governors Island National Monument designation. In addition to 
these military fortifications serving as the centerpiece for this 
nationally designated historic district, the remaining historic 
structures will be adaptively reused for cultural facilities such as an 
art and museum center, a conference center, extended stay hotel, 
waterside dining, small retail shops and a limited amount of office 
space. All activity in the northern portion of the Island will be in 
accordance with the Governors Island Preservation and Design Manual 
agreed to by federal, state, and city representatives.
    The southern end of the Island will be transformed into a large 50-
acre public park, complete with recreation facilities, vast open space, 
and opportunities for visitors to experience the spectacular views of 
the Statue of Liberty and beautiful New York Harbor. A new museum 
celebrating the significance of the Hudson River will include major 
exhibits documenting the River's important ecological systems, the 
significance of the Harbor in the ecology of marine life on the eastern 
seaboard and the important role that New York Harbor has played in our 
nation's history as a military and commercial center. A family activity 
center, similar to Colonial Williamsburg, will focus on historical 
themes such as the American Revolution and the history of America's 
armed forces.
    Governors Island will be a place where residents and visitors alike 
can relax in a new public park, enjoy spectacular open spaces, and 
experience America's rich and glorious history.
    As you know, in 1997 the United States Coast Guard ceased military 
operations at Governors Island. Since that time the federal government 
has spent tens of millions of dollars to protect and maintain these now 
abandoned facilities. The tine has come for the federal government to 
return to the People of the State of New York this property so that 
together we can make it available to people from around the country and 
around the world.
    The Governors Island Preservation Act of 2001 is the first step to 
making that a reality. This legislation returns Governors Island back 
to the State of New York at no cost. By passing this legislation, we 
will be one step closer to preserving, enhancing, and opening to the 
public one of the most important historical spaces in the nation.
    As Americans living in the 21st Century we are truly blessed with a 
proud history that was built upon the foundation of freedom. We have an 
obligation to those who have sacrificed and to the generations of 
Americans who have not yet been born to preserve, honor and celebrate 
that history.
    That is why Governor Pataki strongly urges you to join Senator 
Moynihan and Mayor Giuliani and support the Governors Island 
Preservation Act of 2001.
    Thank you.
                                 ______
                                 
                            Idaho Fish and Game Commission,
                                          Boise, ID, July 31, 2001.
Hon. Larry Craig,
U.S. Senate, 520 Hart Building, Washington, D.C.
    Dear Senator Craig: The Idaho Fish and Game Commission strongly 
supports H.R. 661 which ensures the continued access of hunters to 
federal lands included in the newly expanded Craters of the Moon 
National Monument.
    The Craters of the Moon National Monument was expanded by 
Presidential Proclamation on November 9, 2000. The expansion was 
significant, increasing the size of the monument from about 53,000 
acres to more than 660,000 acres. According to the proclamation, the 
National Park Service will manage approximately 410,000 acres of the 
expanded monument ``under the same laws and regulations that apply to 
the current monument.'' Since the National Park Service does not allow 
hunting within the existing monument, the Presidential Proclamation 
effectively prohibits hunting within the expanded monument.
    There is a common misconception that no hunting takes place on the 
lava flows. Those willing to brave the remote and hostile terrain are 
rewarded with a truly unique recreational experience. Hunters and 
trappers have used this area, but would be prohibited from doing so by 
the Presidential Proclamation. For that reason, the Idaho Fish and Game 
Commission urges passage of H.R. 601, which would restore this 
traditional use. We do, however, suggest the proposed legislation allow 
other wildlife management practices on the expansion, like trapping and 
aerial surveys.
    Hunting, trapping and aerial surveys will not harm the resources 
the monument was established and expanded to protect. These activities 
will have no more effect on the lava flows and geologic resources than 
hiking, photography and sightseeing.
    Hunting and trapping will not interfere with other uses of the 
monument. Both activities occur in the fall and winter, outside the 
high visitation months of June, July and August. Under H.R. 601, these 
activities will be allowed only on the newly expanded portion of the 
monument. The original monument, with its parking areas and visitor 
center, will remain closed to hunting.
    Allowing hunting on lands managed by the National Park Service will 
not set a precedent. When the Hagerman Fossil Beds National Monument 
and the City of Rocks National Reserve were designated, both remained 
open to hunting. The Idaho Department of Fish and Game has worked 
closely with the National Park Service and the Idaho Department of 
Parks and Recreation to ensure hunting does not conflict with other 
uses of these lands. The Department is committed to continuing this 
relationship on the expanded Craters of the Moon National Monument.
    Further, prohibiting hunting and trapping on the expansion is 
impractical, if not impossible. The proclamation grants the National 
Park Service jurisdiction over the exposed lava flows and the Bureau of 
Land Management authority over the sagebrush and grasslands surrounding 
the flows. In reality, the boundary is not so clearly defined. Unless 
the boundary is posted, the average hunter will find it difficult, if 
not impossible, to determine whether he or she is on land managed by 
the BLM, where hunting is allowed, or on lands managed by the National 
Park Service, where hunting is prohibited. Adequately signing the 
boundary would be expensive and unsightly, defeating the purpose of 
protecting the scenic beauty of the area.
    Prohibiting hunting on the expansion will have a negative effect on 
adjacent landowners and the monument itself. In the last twenty years, 
elk populations have increased dramatically on the sagebrush steppe 
land surrounding the Monument and the Idaho National Engineering and 
Environmental Laboratory. Prohibiting hunting will make it difficult to 
control the size of these elk herds. Elk are very adaptable and quickly 
learn where they are safe from hunting. They will spend daylight hours 
in areas where hunting is prohibited and depredate adjacent 
agricultural lands at night, adversely affecting nearby farmers and 
ranchers.
    In addition, a higher elk population could alter the unique native 
plant communities found in the lava flows and smaller kipukas that the 
monument is designed to protect. Large refuges like the expanded 
Monument make it difficult to manage big game populations at a level 
that is compatible with other resource uses and values.
    In closing, the Idaho Fish and Game Commission urges quick action 
on H.R. 601. In a matter of a few weeks, big game hunting seasons open 
in Idaho. Without Congressional action, hunters will be prohibited from 
hunting in areas traditionally open to them. The Idaho Fish and Game 
Commission urges the Senate to resolve this issue before hunters take 
to the field.
            Sincerely,
                                 Frederick L. Wood III, MD,
                                                          Chairman.
                                 ______
                                 
                                    Governors Island Group,
                                    New York City, NY, May 2, 2001.
Ms. Gale A. Norton,
Secretary of the Interior, Washington, DC.
    Dear Secretary Norton: We are writing to let you know of the strong 
local support for the recent establishment of the Governors Island 
National Monument in New York Harbor.
    Last year a broad-based and bipartisan coalition, led by Governor 
Pataki and Mayor Giuilani, agreed on a plan to redevelop the Island as 
a grand new civic space. At the heart of the plan was the creation of a 
National Monument encompassing the forts in the Island's National 
Landmark Historic District.
    This new Park Service property will provide an unique opportunity 
for all Americans to better understand the history of our country, in 
particular, the crucial role played by the Harbor's fortification. 
Given its location, the Forts will become a very popular place for 
learning about the American Revolution and the early days of the 
republic. The site and the stories that can be told there are a natural 
complement to existing Park Service operations at Ellis Island, Statue 
of Liberty, Castle Clinton, and Gateway National Recreation Area. It is 
an extraordinary place, and well deserving of our country's highest 
recognition.
    In a recent letter to our local elected officials you asked for 
input into the role that this Monument should play in New York and how 
the National Park Service can best manage the property. The Governors 
Island National Monument will be an important amenity for the tourist 
and visitor industry in New York. In particular, the designation will 
help buttress the State/City plans to reuse the approximately 1.2 
million square feet of buildings in the National Historic Landmark 
District on the Island for a variety of self-sustaining educational and 
hospitality uses.
    The relationship between the Monument and these other Island 
activities could be strengthened by ensuring that the Management Plan 
that the Park Service prepares for the Monument also addresses 
opportunities for NPS interpretation of the significant historic 
resources on the Island outside of the formal Monument boundaries. 
These include that portion of the Parade Grounds outside of the 
Monument Boundary as well as the Admirals Quarters, the National 
Landmark that was home to many famous Army Generals and used for a 
summit between President Reagan and Soviet President Mikhail Gorbachev.
    Thank you for your interest in the future of the Monument and 
Governors Island. Insuring that Governors Island is returned to the 
citizens of New York and made into a major public amenity is one of the 
highest priorities of the civic community of this region. The agreed-
upon plan to create a self-sustaining public resource with exciting 
historic, cultural, recreational, and commercial activities has been 
enthusiastically endorsed by both business and environmental leaders. 
It has received widespread bipartisan political support, including 
every member of the New York congressional delegation. We trust that 
you and the Bush Administration will also join the broad base of 
support for this plan, including the National Monument designation.

            Very truly yours,

                    Kent Barwick, President, The Municipal Art Society; 
                            Simeon Bankoff, Executive Director, 
                            Historic Districts Council; Peg Breen, 
                            President, New York Landmarks Conservancy; 
                            Antonia Bryson, Executive Director, Urban 
                            Environmental Law Center, Inc.; Albert K. 
                            Butzel, Chair, Hudson River Park Alliance; 
                            H. Claude Shostal, President, Regional Plan 
                            Association; James T.B. Tripp, General 
                            Counsel, Environmental Defense; Margaret 
                            Helfand, President, American Institute of 
                            Architects/New York Chapter; Scott Heyl, 
                            President, Preservation League of New York 
                            State; Elizabeth Lubetkin Lipton, 
                            President, Ellie King, Chair, Arts and 
                            Landmarks Committee; Mark Caserta, Director 
                            of Public Policy, The Parks Council; Robert 
                            J. Kafin, Chair of the Board, New York 
                            Parks and Conservation Association.


</pre></body></html>
